APPENDIX A
Ninth Circuit opinion
(April 24, 2019)

A-1
Case: 17-56343, 04/24/2019, ID: 11274682,
DktEntry: 37-1, Page
FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
JAMES MILLS,
Plaintiff-Appellant,
v.
CITY OF COVINA, a
California municipal
corporation; KIM
RANEY, in his official
capacity as the Chief of
the City of Covina Police
Department;
TERRANCE HANOU,
Officer; DOES, 1–100,
Defendants-Appellees.

No. 17-56343
D.C. No.
2:16-cv-07127DOC-RAO
OPINION

Appeal from the United States District Court
for the Central District of California
David O. Carter, District Judge, Presiding
Argued and Submitted March 8, 2019
Pasadena, California
Filed April 24, 2019
Before: Andrew J. Kleinfeld, Jacqueline H. Nguyen,
and Ryan D. Nelson, Circuit Judges.
Opinion by Judge R. Nelson

A-2
SUMMARY*
Civil Rights
The panel affirmed the district court’s
dismissal of plaintiff’s Fourth Amendment claims as
time-barred and affirmed a judgment on the
pleadings in favor of defendants in an action brought
pursuant to 42 U.S.C. § 1983 alleging that plaintiff
was stopped and searched by police officers without
probable cause, falsely arrested, and maliciously
prosecuted.
Plaintiff brought suit under § 1983 after a
California Court of Appeal overturned his
convictions for possession of a controlled substance
and a smoking device on the grounds that the
Superior Court erred by denying plaintiff’s
suppression motion.
The panel held that plaintiff’s claims for
unlawful stop and detention, false arrest and false
imprisonment were time- barred because Heck v.
Humphrey, 512 U.S. 477 (1994) did not legally
prevent plaintiff from commencing those claims
during his criminal appeal and thus tolling under
California Code of Civil Procedure § 356 was not
triggered. The panel noted that plaintiff’s Fourth
Amendment claims accrued at the time he was
searched and arrested and that under California
This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience
of the reader.
*

A-3
law, the statute of limitations was tolled during the
criminal proceedings in Superior Court, but not
during the criminal appeal. The panel held that
where, as in this case, a § 1983 claim accrues preconviction, the possibility that Heck may require
dismissal of that “not-yet-filed, and thus utterly
indeterminate, § 1983 claim,” is not sufficient to
trigger tolling under California Code of Civil
Procedure § 356.
Addressing the malicious prosecution and Monell
liability claims, the panel found that collateral
estoppel did not apply because a conviction or
judgment that has been reversed on appeal and
vacated lacks preclusive effect and cannot serve as
collateral estoppel in a later proceeding. The panel
nevertheless affirmed the district court’s dismissal
of the claims on the alternative ground that the
reversal of plaintiff’s conviction on basis of the
exclusionary rule was not a favorable termination,
for purposes of a malicious prosecution claim,
because the reversal did not address plaintiff’s guilt
or innocence.
COUNSEL
Joseph M. Adams (argued), Adams & Pham APC,
Costa Mesa, California; Thomas H. Schelly and
Kevin A. Lipeles, Lipeles Law Group APC, El
Segundo, California; for Plaintiff-Appellant.
Trisha E. Newman (argued), Tony M. Sain (argued),
and Andrea K. Kornblau, Manning & Kass Ellrod
Ramirez Trester LLP, Los Angeles, California, for

A-4
Defendants- Appellees.
OPINION
R. NELSON, Circuit Judge:
We consider whether the statute of
limitations for a criminal defendant’s 42 U.S.C. §
1983 action is tolled under California Code of Civil
Procedure § 356 during the pendency of an appeal
from a conviction, in light of the Supreme Court’s
rule in Heck v. Humphrey, 512 U.S. 477 (1994). The
district court held that § 356 does not toll Appellant
James Mills’s § 1983 claims and thus, all but two of
Mills’s claims are time-barred. Because Heck did not
legally prevent Mills from filing his § 1983 claims
during his criminal appeal, we agree with the
district court. We also find Mills’s remaining claims
were properly dismissed, not because those claims
are barred by collateral estoppel, but because
reversal of Mills’s conviction was not a favorable
termination. We therefore affirm.
I
On April 14, 2013, Covina Police Department
Officer Terrance Hanou pulled Mills over for a traffic
stop after seeing Mills exit a hotel and drive to
another hotel. Hanou claimed he pulled Mills over
because his vehicle registration was expired. Mills
alleges Hanou noticed Mills “for no reason other
than his physical appearance—large framed, bald
headed, Caucasian,” and that when Hanou checked
Mills’s vehicle license, the database showed the

A-5
registration was current.
Hanou acknowledged Mills’s registration was
valid but asked to search Mills’s car. Mills refused.
Hanou then made two calls to his supervisor and
asked Mills if there were any weapons in the vehicle.
Mills informed Hanou of an unloaded shotgun in the
cargo compartment.
Hanou requested that Mills exit the vehicle
and Mills complied. Hanou immediately handcuffed
Mills, conducted a pat down search, and found
$10,000 cash on Mills’s person. Hanou then searched
Mills’s vehicle and found the shotgun and an
additional $7,000 cash. After the search, Hanou
arrested Mills claiming he found illegal drugs and “a
smoking device” in Mills’s vehicle.
Prior to Mills’s criminal trial, Mills moved to
suppress evidence of the alleged drugs, arguing
Hanou’s search violated his Fourth Amendment
rights. The California Superior Court denied the
motion. At trial, Hanou testified he found drugs
during the search. Mills testified “there were no
drugs in his vehicle,” “there was evidence that the
drugs were planted,” and Mills’s counsel closed by
stating, “Mr. Mills did not have drugs in his car.
Those drugs were planted, and he’s not guilty.” On
June 6, 2014, Mills was convicted of one count of
possession
of
a
controlled
substance
(methamphetamine) and one count of possession of
a smoking device and was sentenced to eighteen
months’ probation.

A-6

On March 3, 2016, the California Court of
Appeal overturned Mills’s conviction. The Court of
Appeal held, in an unpublished opinion, that Hanou
violated Mills’s Fourth Amendment rights by
searching the vehicle without probable cause and
therefore, the Superior Court erred by denying
Mills’s suppression motion. Because “[t]he
methamphetamine Hanou recovered from the center
console
and
the
methamphetamine
and
methamphetamine pipe he recovered from the
luggage formed the evidentiary basis for [Mills’s]
convictions in th[e] case,” the Court of Appeal held
that further proceedings below would be an “idle
gesture,” and remanded for dismissal.
On September 22, 2016, Mills filed this suit
against the City of Covina, Covina Police Chief Kim
Raney, and Hanou, alleging, under 42 U.S.C. § 1983,
claims for: (1) unlawful stop and detention, (2) false
arrest, (3) false imprisonment, (4) malicious
prosecution, (5) failure to screen and hire properly,
(6) failure to train properly, (7) failure to supervise
and discipline, and (8) Monell municipal liability
against the City of Covina. The district court
dismissed all but Mills’s § 1983 claim for malicious
prosecution and the related Monell claim as timebarred. The district court held that Heck “did not bar
[Mills] from filing his claims while he was subject to
a criminal prosecution,” and thus, California Code of
Civil Procedure § 356 did not toll his claims during
the pendency of his criminal appeal.
Mills filed two amended complaints against

A-7
only the City of Covina and Hanou (collectively
“Appellees”) alleging, under § 1983, claims for: (1)
malicious prosecution and (2) Monell municipal
liability. On August 4, 2017, Appellees moved for
judgment on the pleadings, arguing that Mills’s
amended claims were barred by collateral estoppel
or, in the alternative, that Mills failed to establish a
favorable termination of his criminal proceedings.
The district court held that collateral estoppel
barred Mills from relitigating the issue of whether
he possessed drugs, and thus, probable cause was
conclusively established. The district court did not
reach Appellees’ favorable termination argument.
Mills now appeals.
II
We have jurisdiction under 28 U.S.C. § 1291.
We review de novo the district court’s dismissal
based on the statute of limitations. Johnson v.
Lucent Techs., Inc., 653 F.3d 1000, 1005 (9th Cir.
2011). We also review de novo the district court’s
judgment on the pleadings based on collateral
estoppel. Clark v. Bear Stearns & Co., 966 F.2d 1318,
1320 (9th Cir. 1992).
III
A
We begin by determining whether Mills’s §
1983 claims for unlawful stop and detention, false
arrest, false imprisonment, failure to screen and
hire properly, failure to train properly, and failure to
supervise and discipline are time-barred. The

A-8
parties and the district court agree that those claims
accrued on April 14, 2013, when the search was
conducted and Mills was arrested. That is correct.
“[T]he accrual date of a § 1983 cause of action is a
question of federal law . . . .” Wallace v. Kato, 549
U.S. 384, 388 (2007). “[A]ccrual occurs when the
plaintiff has a complete and present cause of action,
. . . that is, when the plaintiff can file suit and obtain
relief.” Id. (internal citations, quotation marks and
brackets

omitted).

1

Mills

had

complete

and

Prior to Wallace, the rule in this circuit was that a § 1983
action like this one “alleging illegal search and seizure of
evidence upon which criminal charges are based does not
accrue until the criminal charges have been dismissed or the
conviction has been overturned.” Harvey v. Waldron, 210 F.3d
1008, 1015 (9th Cir. 2000). District courts have expressed
confusion over whether this deferred accrual rule survived the
Supreme Court’s decision in Wallace. See, e.g., Choma v.
Arnold, No. CV 11-5906, 2012 WL 1340387, at *3 (C.D. Cal.
Mar. 19, 2012)
(“The Ninth Circuit has not yet addressed explicitly whether
Harvey’s accrual rule has survived the Supreme Court’s
decision in Wallace . . . .”); Hawkins v. Suisun City Police Dep’t,
No. 2:08cv0529, 2008 WL 3974388, at *1 (E.D. Cal. Aug. 22,
2008) (relying on Harvey’s proposition that “Heck has been
interpreted to apply to pending charges”); Kamar v. Krolczyk,
No. 1:07-CV-0340, 2008 WL 2880414, at *6 (E.D. Cal. July 22,
2008) (finding Wallace “has effectively overruled Harvey”). The
deferred accrual rule we announced in Harvey for Fourth
Amendment claims was based on our more general holding
“that Heck applies to pending criminal charges, and that a
claim, that if successful would necessarily imply the invalidity
of a conviction in a pending criminal prosecution, does not
accrue so long as the potential for a conviction in the pending
criminal prosecution continues to exist.” Harvey, 210 F.3d. at
1014. That general holding is “clearly irreconcilable” with
Wallace’s holding that “the Heck rule for deferred accrual is

1

A-9
present causes of action for all but his malicious
prosecution and Monell liability claims when he was
subjected to a search in violation of the Fourth
Amendment and was arrested; therefore, those
claims accrued at that time.
Next, to determine whether the statute of
limitations ran on Mills’s claims, we “apply
[California’s] statute of limitations for personal
injury actions, along with [California’s] law
regarding tolling, including equitable tolling, except
to the extent any of these laws is inconsistent with
federal law.” Canatella v. Van De Kamp, 486 F.3d
1128, 1132 (9th Cir. 2007) (internal quotation marks
omitted). California’s two-year statute of limitations
for personal injury actions thus applies to Mills’s
claims. See Cal. Civ. Proc. Code § 335.1; Canatella,
486 F.3d at 1132– 33.
Mills filed his claims on September 22, 2016,
roughly three years and five months after the search
and arrest. His claims would therefore be timebarred absent tolling. The parties agree that
California Government Code § 945.3 tolled the
statute of limitations during Mills’s criminal
proceedings in the Superior Court, but not during
his criminal appeal. The parties also agree that, but
for additional tolling, the statute of limitations
called into play only when there exists a conviction or sentence
that has not been . . . invalidated.” 549 U.S. at 393 (internal
quotation marks omitted). Thus, Harvey’s deferred accrual rule
has been “effectively overruled” and is no longer good law. See
Miller v. Gammie, 335 F.3d 889, 900 (9th Cir. 2003) (en banc).

A - 10
elapsed during Mills’s criminal appeal. Mills,
however, argues that California Code of Civil
Procedure § 356 tolled the statute of limitations
during the pendency of his criminal appeal because
he was legally prevented from bringing those claims
during that period by the Supreme Court’s decision
in Heck. We disagree.
Under § 356, “[w]hen the commencement of an
action is stayed by injunction or statutory
prohibition, the time of the continuance of the
injunction or prohibition is not part of the time
limited for the commencement of the action.” As
Appellees argue, a judicially created bar to
commencing an action appears to fall outside § 356
based on its plain language. The California Supreme
Court, however, has explained that § 356 “has been
applied in situations where the action is legally
prohibited by other means than injunctions or
statutory prohibition.” Hoover v. Galbraith, 7 Cal. 3d
519, 526 (1972) (collecting cases). Indeed, while the
California Supreme Court has not specifically
addressed the impact of a judicially created bar on §
356, it has held “that the running of the statute of
limitations is suspended during any period in which
the plaintiff is legally prevented from taking action
to protect his rights.” Dillon v. Bd. of Pension
Comm’rs of City of Los Angeles, 18 Cal. 2d 427, 431
(1941); see also Hoover, 7 Cal. 3d at 526 (confirming
that “[t]he limitation period has been tolled during
the period in which a plaintiff is legally prevented
from taking action to protect his rights”). We are
bound by this interpretation. See Lewis v. Tel. Emps.
Credit Union, 87 F.3d 1537, 1545 (9th Cir. 1996)

A - 11
(“When interpreting state law, federal courts are
bound by decisions of the state’s highest court.”)
(internal quotation marks omitted).
Notably, however, in Hoover and each case it
discussed, a definitive bar to commencing an action
was required to trigger tolling under § 356,
regardless whether the prohibition was by statute,
injunction, or otherwise. See Hoover, 7 Cal. 3d at 526
(plaintiff precluded by statute from commencing
action against directors of corporation until appeal
from judgment on his claim against debtor
corporation became final); Dillon, 18 Cal. 2d at 430–
31 (plaintiff precluded by city charter from
commencing action until decision from pension
board became final); Skaggs v. City of Los Angeles,
43 Cal. 2d 497, 500 (1954) (same). Because we hold
the Heck bar did not operate as such a definitive bar
to the commencement of Mills’s action, we need not
decide whether a judicially created bar can trigger
tolling under § 356.
In Heck, the Supreme Court announced that
“in order to recover damages for allegedly
unconstitutional conviction or imprisonment, or for
other harm caused by actions whose unlawfulness
would render a conviction or sentence invalid, a §
1983 plaintiff must prove that the conviction or
sentence has been [set aside]. A claim for damages
bearing that relationship to a conviction or sentence
. . . is not cognizable under § 1983.” 512 U.S. at 486–
87 (internal citations omitted).
In Wallace, the Supreme Court recognized a

A - 12
“complication” in applying the Heck bar to claims
like Mills’s that “arises from the fact that § 1983
actions, unlike the tort of malicious prosecution
which Heck took as its model . . . sometimes accrue
before the setting aside of— indeed, even before the
existence of—the related criminal conviction.” 549
U.S. at 394 (internal citation omitted). As the Court
explained, application of Heck to such claims “raises
the question whether, assuming that the Heck bar
takes effect when the later conviction is obtained, the
statute of limitations on the once valid cause of
action is tolled as long as the Heck bar subsists.” Id.
There, like here, “[i]f petitioner’s conviction . . .
caused the statute of limitations on his (possibly)
impugning but yet-to-be-filed cause of action to be
tolled until that conviction was set aside, his filing []
would have been timely.” Id.
Finding no basis for tolling under Illinois
state law, the Court declined to adopt a federal
equitable tolling rule in such circumstances. Id. The
Court reasoned:
Under such a regime, it would not be
known whether tolling is appropriate by
reason of the Heck bar until it is
established that the newly entered
conviction would be impugned by the
not-yet-filed,
and
thus
utterly
indeterminate, § 1983 claim. It would
hardly be desirable to place the question
of tolling vel non in this jurisprudential
limbo, leaving it to be determined by
those
later
events,
and
then

A - 13
pronouncing it retroactively.
Id. at 394–95 (internal footnote omitted).
For these same reasons, we find that where,
as here, a § 1983 claim accrues pre-conviction, the
possibility that Heck may require dismissal of that
“not-yet-filed, and thus utterly indeterminate, §
1983 claim,” is not sufficient to trigger tolling under
California Code of Civil Procedure § 356. In such
circumstances, it is not known whether the claim is
barred by Heck until the claim is filed and the district
court determines that it will impugn an extant
conviction. Until that determination is made, a
plaintiff is not “legally prevented from taking action
to protect his rights.” Hoover, 7 Cal. 3d at 526.
Mills nevertheless implores us to adopt a rule
allowing California plaintiffs to wait until the
resolution of their criminal appeals to file their §
1983 claims, leaving district courts to retroactively
pronounce the applicability of the Heck bar and, in
turn, tolling under § 356. As discussed above,
however, the Supreme Court rejected the petitioner’s
invitation to adopt a similar rule in Wallace in part
because “[d]efendants need to be on notice to
preserve beyond the normal limitations period
evidence that will be needed for their defense; and a
statute that becomes retroactively extended, by the
action of the plaintiff in crafting a convictionimpugning cause of action, is hardly a statute of
repose.” 549 U.S. at 395. We likewise decline to
adopt such a rule.
Ultimately, nothing prevented Mills from

A - 14
commencing his suit during his criminal appeal.
Had he done so, the district court could have
determined whether his claims impugned his
conviction. If so, the district court could have
dismissed those claims without prejudice, and Mills
could have refiled the claims once his conviction was
reversed. See id. at 395 n.4 (“If under those
circumstances he were not allowed to refile his suit,
Heck would produce immunity from § 1983 liability,
a result surely not intended.”). If Mills’s claims did
not impugn his conviction, the suit could have
proceeded. Because Mills was not legally precluded
from commencing his § 1983 claims during the
pendency of his criminal appeal, he was not “legally
prevented from taking action to protect his rights”
and tolling under § 356 was not triggered. See
Hoover, 7 Cal. 3d at 526. We therefore affirm the
district court’s holding that all but Mills’s claims for
malicious prosecution and Monell liability are timebarred.
B
1
We next consider whether the district court
properly dismissed Mills’s § 1983 malicious
prosecution claim under the doctrine of collateral
estoppel. Federal courts rely on state common law
for elements of malicious prosecution. Awabdy v.
City of Adelanto, 368 F.3d 1062, 1066 (9th Cir. 2004).
California law requires a plaintiff claiming malicious
prosecution to establish “that the prior action (1)
was commenced by or at the direction of the
defendant and was pursued to a legal termination in

A - 15
his, plaintiff’s, favor; was brought without probable
cause; and (3) was initiated with malice.” Sheldon
Appel Co. v. Albert & Oliker, 47 Cal. 3d 863, 871
(1989) (internal quotation marks omitted).
Additionally, to maintain a § 1983 action for
malicious prosecution, “a plaintiff ‘must show that
the defendants prosecuted [him] . . . for the purpose
of denying [him] equal protection or another specific
constitutional right.’” Awabdy, 368 F.3d at 1066
(quoting Freeman v. City of Santa Ana, 68 F.3d 1180,
1189 (9th Cir. 1995)).
State law also governs the application of
collateral estoppel to a state court judgment in a
federal civil rights action. Ayers v. City of Richmond,
895 F.2d 1267, 1270 (9th Cir. 1990). Under
California law, collateral estoppel bars the
relitigation of an issue in a subsequent proceeding
when certain threshold requirements are fulfilled:
[1] the issue sought to be precluded from
relitigation must be identical to that
decided in a former proceeding[; 2] this
issue must have been actually litigated in
the former proceeding[; 3] it must have
been necessarily decided in the former
proceeding[; 4] the decision in the former
proceeding must be final and on the
merits[; 5] the party against whom
preclusion is sought must be the same as,
or in privity with, the party to the former
proceeding.
Gikas v. Zolin, 6 Cal. 4th 841, 849 (1993).

A - 16

In holding collateral estoppel applied, the
district court reasoned that “[w]hether Hanou
actually discovered drugs and thus had probable
cause to arrest [Mills], as opposed to planting or
fabricating the drugs, appear[ed] to be identical to
an issue already decided in the prior criminal
proceeding.” That was because “[t]he jury
necessarily had to determine whether [Mills]
actually possessed drugs in order to convict him of
possession of a controlled substance in violation of
California Health & Safety Code § 11377(a).” In the
district court’s view, “that factual finding ha[d] not
been overturned” by the Court of Appeal because
Mills sought reversal of his conviction only on
Fourth Amendment grounds and because “[t]he
Court of Appeal’s analysis assume[d] that [Hanou]
did find methamphetamine in [Mills’s] vehicle.”
Mills argues he is not collaterally estopped
from litigating the issue of probable cause here
because his reversed conviction was not final. We
agree. Under California law, “[f]or purposes of issue
preclusion, final judgment includes any prior
adjudication of an issue in another action that is
determined to be sufficiently firm to be accorded
conclusive effect.” People v. Cooper, 149 Cal. App.
4th 500, 520 (2007) (quoting Border Bus. Park, Inc.
v. City of San Diego, 142 Cal. App. 4th 1538, 1564
(2006)) (internal quotation marks omitted). “A final
judgment is defined as one that is free from direct
attack. Stated differently, [t]o be final for purposes
of collateral estoppel the decision need only be
immune, as a practical matter, to reversal or

A - 17
amendment.” Id. (internal quotation marks
omitted). It follows from this that a conviction or
judgment that has been reversed on appeal and
vacated cannot serve as collateral estoppel in a later
proceeding.1 Accordingly, Mills’s reversed conviction
and the factual determinations underlying that
conviction lack conclusive effect here.
That Mills challenged his conviction on
Fourth Amendment grounds rather than attacking
the jury’s underlying factual determinations does
not change this result. As the Sixth Circuit
explained considering nearly identical facts: where a
criminal defendant successfully appealed his
conviction on constitutional grounds, “he was not
acquiescing in adverse factual determinations made
at his trial.” Dodrill v. Ludt, 764 F.2d 442, 444 (6th
Cir. 1985). Thus, “[w]hen he won his appeal and the
judgment
was
vacated, all such factual
determinations were vacated with it, and their
preclusive effect surrendered.” Id. at 444–45.
Nor does the Court of Appeal’s reference to
Mills possessing methamphetamine change the fact
that the jury’s underlying factual determinations to
that effect were vacated with Mills’s conviction. The
Court of Appeal had no occasion to reassess the
jury’s underlying findings of fact. Instead, the Court
of Appeal was tasked with determining whether
1 This is also the federal rule. See, e.g., Ornellas v. Oakley,
618 F.2d 1351, 1356 (9th Cir. 1980) (“A reversed or dismissed
judgment cannot serve as the basis for a disposition on the
ground of res judicata or collateral estoppel.”).

A - 18
violation of Mills’s Fourth Amendment rights
warranted overturning his conviction. The Court of
Appeal concluded that it did and reversed. That
“reversal . . . vacate[d] the judgment entirely,
technically leaving nothing to which we may accord
preclusive effect.” Dodrill, 764 F.2d at 444.
Finally, Appellees’ reliance on the California
common law rule, that probable cause in a malicious
prosecution action may be conclusively established
by a conviction or judgment despite reversal, does
not support their collateral estoppel argument. As
the California Supreme Court has made clear, that
common law rule, sometimes referred to as the
“interim adverse judgment rule,” is not part of the
doctrine of collateral estoppel as it “does not operate,
like collateral estoppel, to preclude relitigation of an
issue of fact.” Wilson v. Parker, Covert & Chidester,
28 Cal. 4th 811, 825 (2002); see also L.G. v. M.B., 25
Cal. App. 5th 211, 230 n.15 (2018) (“Our Supreme
Court has explained that the interim adverse
judgment rule is not part of the doctrine of res
judicata or any of its branches, but is derived from
the definition of probable cause.”) (internal
quotation marks omitted). Because the district court
did not make any findings as to the applicability of
the interim adverse judgment rule, and because we
affirm the district court’s dismissal on alternative
grounds, we do not decide whether the interim
adverse judgment rule applies here. It is enough to
find that collateral estoppel does not bar Mills from
pursuing his malicious prosecution claim.
2

A - 19

Appellees argue that we can affirm the
district court’s dismissal of Mills’s malicious
prosecution claim on the alternative ground that
Mills’s reversed conviction did not constitute a legal
termination in Mills’s favor. We agree.
Under California law, the favorable
termination element of a malicious prosecution
claim “requires a termination reflecting the merits of
the action and plaintiff’s innocence of the
misconduct.” Pattiz v. Minye, 61 Cal. App. 4th 822,
827 (1998). “If . . . the dismissal is on technical
grounds, for procedural reasons, or for any other
reason not inconsistent with his guilt, it does not
constitute a favorable termination.” Jaffe v. Stone,
18 Cal. 2d 146, 150 (1941). Put differently, “[i]f the
resolution of the underlying action leaves some
doubt concerning plaintiff’s innocence or liability, it
is not a favorable termination sufficient to allow a
cause of action for malicious prosecution.” Pattiz, 61
Cal. App. 4th at 827.
The California Court of Appeal reversed
Mills’s conviction because it held that the
government’s evidence that Mills possessed drugs
should have been excluded on Fourth Amendment
grounds. We have never considered whether
reversal of a conviction under the exclusionary rule
qualifies as a favorable termination. District courts
in this circuit have held categorically that it does
not. See, e.g., Willis v. Mullins, 809 F. Supp. 2d 1227,
1241 (E.D. Cal. 2011) (stating that “a conviction
overturned due to the exclusionary rule does not

A - 20
qualify as a favorable termination for the purposes of
malicious prosecution”). At least in circumstances
such as these, we agree.
The exclusionary rule excludes relevant and
probative evidence not because of a person’s
innocence, but rather to prevent violations of the
Fourth Amendment. See Lego v. Twomey, 404 U.S.
477, 488–89 (1972). As the Supreme Court has
explained, applying the exclusionary rule diverts
“from the ultimate question of guilt or innocence that
should be the central concern in a criminal
proceeding.” Stone v. Powell, 428 U.S. 465, 490
(1976). Indeed, “the physical evidence sought to be
excluded is typically reliable and often the most
probative information bearing on the guilt or
innocence of the defendant.” Id.
In reversing Mills’s conviction based on the
exclusionary rule, the Court of Appeal did not find
that Mills actually possessed drugs or that those
drugs were planted. The Court of Appeal held only
that the drug evidence should have been excluded.
Absent more, the Court of Appeal’s ruling does not
speak to Mills’s “innocence of the misconduct.”
Pattiz, 61 Cal. App. 4th at 827. Certainly, the Court
of Appeal’s decision leaves at minimum “some doubt”
as to Mills’s innocence. Id. That is sufficient under
California law to find that there was no favorable
termination. Id. Accordingly, we affirm the district
court’s dismissal of Mills’s malicious prosecution
and Monell liability claims on this alternative
ground.

A - 21
IV
All but Mills’s § 1983 malicious prosecution
and Monell liability claims are time-barred because
the Heck bar did not legally prevent Mills from
commencing those claims during his criminal appeal
and thus, tolling under California Code of Civil
Procedure § 356 was not triggered. Mills’s malicious
prosecution and Monell actions are also barred, not
because of collateral estoppel, but because reversal
of Mills’s conviction was not a favorable termination.
Accordingly, the district court’s judgment is
AFFIRMED.

APPENDIX B
District court order granting
motion to dismiss
(February 7, 2017)

B-1
Case 2:16-cv-07127-DOC-RAO Document 23
Filed 02/07/17 Page 1 of 11 Page ID #:187
UNITED STATES DISTRICT
COURT CENTRAL DISTRICT OF
CALIFORNIA
CIVIL MINUTES – GENERAL
Case No. CV 16-7127-DOC (RAOx)
Date: February 7, 2017
Title: JAMES MILLS V. CITY OF COVINA ET AL.
PRESENT:
THE HONORABLE DAVID O. CARTER JUDGE
Deborah Goltz
Courtroom Clerk

Not Present
Court Reporter

ATTORNEYS
PRESENT
FOR PLAINTIFF
None Present

ATTORNEYS
PRESENT
FOR DEFENDANT
None Present

PROCEEDINGS (IN CHAMBERS):
ORDER GRANTING MOTION TO DISMISS
[13]
Before the Court is Defendants City of Covina,
Kim Raney, and Terrence Hanou’s (collectively,
“Defendants”) Motion to Dismiss Plaintiff’s
Complaint with Prejudice (“Motion”) (Dkt. 13). The

B-2
Court finds this matter suitable for resolution
without oral argument. Fed. Civ. P. 78; L.R. 7-15.
Having reviewed the papers and considered the
parties’ arguments, the Court GRANTS Defendants’
Motion.
I.

Background
A. Facts

The following facts are drawn from Plaintiff’s
Complaint (“Compl.”) (Dkt. 1).
On April 14, 20131 at around 4:20 p.m.,
Defendant Officer Terrence Hanou2 (“Hanou”)
pulled Plaintiff over for a traffic stop. Compl. ¶¶ 9,
10. Hanou apparently saw Plaintiff walk from the
lobby of the Fairfield Hotel in West Covina,
California to Plaintiff’s Ford SUV. Id. ¶ 9. Hanou
then saw Plaintiff drive around the Fairfield and
1

Plaintiff’s Complaint mistakenly alleges that Plaintiff
was pulled over and arrested on April 14, 2014. See Compl.
¶ 9. However, the parties appear to agree that the arrest date
was April 14, 2013. See Opp’n at 3. This date is also supported
by judicially noticed documents. See Mot. Exs. A (Claim for
Damages Injury or Loss, citing incident date of “4/14/2013”), C
(Los Angeles County Criminal Case Summary, listing
“violation date” as April 14, 2013).
2

Plaintiff spells Defendant Hanou’s name as “Terrance.”
See Compl. at 2. However, documents of which the Court takes
judicial notice, and the Defendants’ briefing, suggest that the
correct spelling is “Terrence.” See generally Mot.; Declaration
of Thomas Schelly (“Shelly Decl.”) (Dkt. 14-1).

B-3
stop at another hotel. Id. Hanou checked the license
of Plaintiff’s vehicle and has represented that he
discovered that the registration had expired. Id.
This discovery led Hanou to pull Plaintiff over. Id.
Plaintiff alleges that Hanou actually noticed
Plaintiff “for no reason other than his physical
appearance—large
framed,
bald
headed,
Caucasian[.]” Id. ¶ 10. Plaintiff also alleges that
when Hanou checked Plaintiff’s vehicle license in
the police database, the database showed that the
registration was current. Id.
Ultimately, the parties agree that Hanou
pulled Plaintiff over. Id. During the traffic stop,
Hanou’s dashboard camera was functioning and in
operation. Id. ¶ 11. However, immediately before
exiting his patrol car, Hanou turned up the volume
on the patrol car’s radio such that the radio
“drowned out all other sounds” on the dashboard
camera. Id. After approaching Plaintiff, Hanou
asked whether Plaintiff was on parole or probation,
and whether he had ever been arrested. Id. ¶ 12.
Plaintiff answered in the negative. Id. Plaintiff
produced his driver’s license, vehicle registration,
and proof of insurance. Id. Hanou acknowledged
that the registration was valid, and then asked if he
could search Plaintiff’s car. Id. Plaintiff said no. Id.
After Plaintiff refused to consent to a vehicle
search, Hanou made a call on his cell phone and then
asked Plaintiff if Plaintiff had any weapons in his
vehicle. Id. ¶ 13. Plaintiff informed Hanou that there
was an unloaded shotgun in the “cargo

B-4
compartment.” Id. Hanou then made another call on
his cell phone and asked Plaintiff to exit his vehicle.
Id. ¶ 14. Plaintiff complied. Id.
Dashboard camera footage shows that Hanou
immediately handcuffed Plaintiff and conducted a
pat down search. Id. ¶ 15. During the pat down,
Hanou found $10,000 in cash on Plaintiff’s person.
Id. Hanou then conducted a search of Plaintiff’s
entire vehicle, starting with the “cargo area.” Id. ¶
16. Hanou removed the contents of Plaintiff’s
vehicle, placing items on the ground—including a
firearm case containing the shotgun that Plaintiff
had reported to Hanou. Id. ¶¶ 16, 17.
During the search, Hanou found an additional
$7,000 in cash in the front seat area of Plaintiff’s
vehicle. Id. ¶ 18. After Hanou finished searching the
car, he placed Plaintiff in the back seat of his patrol
car. Id. ¶ 22. Plaintiff was placed under arrest, and
Hanou apparently informed Plaintiff that Hanou
was arresting Plaintiff because Hanou found illegal
drugs and “a smoking device” in Plaintiff’s vehicle.
Id. ¶ 23. This was not true. Id. The only thing
confiscated from Plaintiff’s vehicle was cash. Id.
At trial, no drugs were introduced into
evidence and the prosecutors denied that Hanou’s
patrol car had a dashboard camera. Id. ¶ 24. In spite
of the prosecutor’s misrepresentations and the
absence of evidence, on June 6, 2014, Plaintiff was
convicted of one count of possession of a controlled
substance and one count of possession of a smoking
device. Id. Plaintiff was sentenced to eighteen

B-5
months of probation. Id. Because of his arrest,
Plaintiff spent twenty-eight days in jail. Id. ¶ 25.
Only $15,950 of the $17,000 confiscated from
Plaintiff was ever returned. Id. ¶ 26. Plaintiff’s
conviction was overturned by the California Court of
Appeals on March 3, 2016 and remittitur issued on
May 20, 2016. Id. ¶ 27.
B. Procedural History
Plaintiff filed suit against the City of Covina,
Kim Raney (“Raney”) in his official capacity as the
Chief of the City of Covina Police Department, and
Office Terrence Hanou on September 22, 2016 (Dkt.
1). Plaintiff brings eight claims. Under 42 U.S.C. §
1983, Plaintiff alleges (1) unlawful stop and
detention; (2) false arrest; (3) false imprisonment; (4)
malicious prosecution; (5) failure to screen and
properly hire, against the City of Covina and Raney;
(6) failure to train properly, against the City of
Covina and Raney; and (7) failure to supervise and
discipline, against the City of Covina and Raney. See
generally Compl. Plaintiff also alleges an eighth
claim, styled as a “Monell municipal liability civil
rights claim,” against the City of Covina. See id. ¶¶
80–88.
Defendants filed the instant Motion on
November 2, 2016. Plaintiff opposed on November
14, 2016 (“Opposition”) (Dkt. 14), and Defendants
replied on November 21, 2016 (“Reply”) (Dkt. 15).

B-6
II.

Legal Standard
A. Motion to Dismiss

Under Federal Rule of Civil Procedure
12(b)(6), a complaint must be dismissed when a
plaintiff’s allegations fail to set forth a set of facts
which, if true, would entitle the complainant to
relief. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007); Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009)
(holding that a claim must be facially plausible in
order to survive a motion to dismiss). The pleadings
must raise the right to relief beyond the speculative
level; a plaintiff must provide “more than labels and
conclusions, and a formulaic recitation of the
elements of a cause of action will not do.” Twombly,
550 U.S. at 555 (citing Papasan v. Allain, 478 U.S.
265, 286 (1986)). On a motion to dismiss, a court
accepts as true a plaintiff’s well-pleaded factual
allegations and construes all factual inferences in
the light most favorable to the plaintiff. See
Manzarek v. St. Paul Fire & Marine Ins. Co., 519
F.3d 1025, 1031 (9th Cir. 2008). A court is not
required to accept as true legal conclusions couched
as factual allegations. Iqbal, 556 U.S. at 678.
In evaluating a Rule 12(b)(6) motion, review
is ordinarily limited to the contents of the complaint
and material properly submitted with the complaint.
Van Buskirk v. Cable News Network, Inc., 284 F.3d
977, 980 (9th Cir. 2002); Hal Roach Studios, Inc. v.
Richard Feiner & Co., Inc., 896 F.2d 1542, 1555 n.19
(9th Cir. 1990). Under the incorporation by reference
doctrine, the court may also consider documents
“whose contents are alleged in a complaint and

B-7
whose authenticity no party questions, but which
are not physically attached to the pleading.” Branch
v. Tunnell, 14 F.3d 449, 454 (9th Cir. 1994),
overruled on other grounds by Galbraith v. Cnty. of
Santa Clara, 307 F.3d 1119, 1121 (9th Cir. 2002).
The court may treat such a document as “part of the
complaint, and thus may assume that its contents
are true for purposes of a motion to dismiss under
Rule 12(b)(6).” United States v. Ritchie, 342 F.3d
903, 908 (9th Cir. 2003).
When a motion to dismiss is granted, the
court must decide whether to grant leave to amend.
The Ninth Circuit has a liberal policy favoring
amendments and, thus, leave to amend should be
freely granted. See, e.g., DeSoto v. Yellow Freight
System, Inc., 957 F.2d 655, 658 (9th Cir. 1992).
However, a court need not grant leave to amend
when permitting a plaintiff to amend would be an
exercise in futility. See, e.g., Rutman Wine Co. v. E.
& J. Gallo Winery, 829 F.2d 729, 738 (9th Cir. 1987)
(“Denial of leave to amend is not an abuse of
discretion where the pleadings before the court
demonstrate that further amendment would be
futile.”).
B. Requests for Judicial Notice

Defendants have asked the Court to take
judicial notice of two court records and ten
“adjudicative facts.” See generally Defendants’
Request for Judicial Notice (“Def.’s RJN”) (Dkt. 137). Plaintiff has asked the Court to take judicial
notice of the appellate opinion in People v. Mills,

B-8
Case No. B257145. See Plaintiff’s Request for
Judicial Notice (“Pl.’s RJN”) (Dkt. 14-2).
The court may take judicial notice of court
filings and other matters of public record. Fed. R.
Evid. 201(b); Reyn’s Pasta Bella, LLC v. Visa USA,
Inc., 442 F.3d 741, 746 (9th Cir. 2006) (citing
Burbank–Glendale–Pasadena Airport Auth. v. City
of Burbank, 136 F.3d 1360, 1364 (9th Cir. 1998).
Therefore, the court takes judicial notice of:
 Letter from James E. Mills to City Clerk,
stamped by City Clerk, and attachments (Mot.
Ex. A);
 Letter from City of Covina Risk Manager to
James E Mills, date April 15, 2014 (Mot. Ex.
B);
 Superior Court of California, County of Los
Angeles Criminal Case Summary of Case No.
CITKA101563-01, James Edward Mills (time
stamped October 31, 2016) (Mot. Ex. C);
 Superior Court of California, County of Los
Angeles Criminal Case Summary of Case No.
XEAKA101563-01, James Edward Mills (time
stamped October 31, 2016) (Mot. Ex. D);
 People v. James Edward Mills, Case No.
B257145, filed March 3, 2016 (Mot. Ex. E); and
 People v. James Edward Mills, Case No.
B257145, filed March 3, 2016 (Declaration of
Thomas Schelly (“Schelly Decl.”) (Dkt. 14-1)
Ex. 1).

B-9
III.

Discussion
A. Statute of Limitations

Defendants first argue that Plaintiff’s entire
action must be dismissed as time- barred. See Mot.
at 6–12.
The parties agree that California’s two-year
statute of limitation for injury claims applies to
Plaintff’s § 1983 claims. Mot. at 6; Opp’n at 2–3. This
is correct. “‘For actions under 42 U.S.C. § 1983 . . .
courts apply the forum state’s statute of limitations
for personal injury actions, along with the forum
state’s law regarding tolling, including equitable
tolling, except to the extent any of these laws is
inconsistent with federal law.’” Canatella v. Van De
Kamp, 486 F.3d 1128, 1132 (9th Cir. 2007) (citing
Jones v. Blanas, 393 F.3d 918, 927 (9th Cir. 2004),
cert. denied, 546 U.S. 820 (2005)). In California,
actions other than for the recovery of real property
are subject to a two-year statute of limitations. Cal.
Code Civ. P. § 335.1.
Federal courts also borrow state rules
governing “closely related questions of tolling and
application.” Sain v. City of Bend, 309 F.3d 1134,
1138 (9th Cir. 2002) (quoting Wilson v. Garcia, 471
U.S. 261, 269 (1985) superceded on other grounds as
stated in Jones v. R.R. Donnelley & Sons Co., 541
U.S. 369 (2004)).
The parties agree that the statute of
limitations began to run on April 14, 2013, the date
of the traffic stop, search, and arrest. Mot. at 7;
Opp’n at 3 n.2. Thus, barring evidence of tolling,
Plaintiff’s statute of limitations expired on April 14,
2015. See Opp’n at 3 n.2 (Plaintiff conceding this

B - 10
point). This action was filed on September 22, 2016,
more than a year later. Plaintiff argues that his
claim was tolled for 1,054 days and the limitation
period expires on March 3, 2018. Opp’n at 3.
For the reasons explained below, the Court
finds that Plaintiff’s unlawful stop and detention,
false arrest, false imprisonment, failure to screen
and properly hire, failure to train properly, and
failure to supervise and discipline claims are timebarred.

1.

Statutory Tolling

Under California law, a statute of limitations is
tolled while a criminal case is pending in the
Superior Court. Cal. Gov. Code § 945.3. Thus,
Plaintiff’s limitations period was tolled between his
arrest and his sentencing on June 24, 2014. See Mot.
Ex. D at 2. This means June 24, 2016 was Plaintiff’s
deadline to file.
Plaintiff argues that the limitations period was
also tolled pursuant to California Code of Civil
Procedure § 356. Opp’n at 4. Section 356 provides
that “[w]hen the commencement of an action is
stayed by injunction or statutory prohibition, the
time of the continuance of the injunction or
prohibition is not part of the time limited for the
commencement of the action.” In other words, if
Plaintiff was legally barred from filing his claims,
his limitation period is tolled for that period of time.

B - 11
Plaintiff argues that Heck v. Humphrey, 512
U.S. 477 (1994), operated to “legally prevent” him
from commencing the instant action until his
criminal conviction was invalidated on appeal.
Opp’n at 4–5. Plaintiff’s conviction was invalidated
on March 3, 2016. Compl. ¶ 27; see also Schelly Decl.
Ex. 1 (appellate opinion in People v. Mills, Case No.
B257145). Therefore, under Plaintiff’s reading, he
would have until March 3, 2018 to file his claims.
Under Heck, “[w]hen ‘a judgment in favor of the
plaintiff would necessarily imply the invalidity of his
conviction or sentence’ . . . § 1983 is not an available
remedy. ‘But if . . . the plaintiff’s action, even if
successful, will not demonstrate the invalidity of [his
conviction or sentence], the [§ 1983] action should be
allowed to proceed ” In re Pruett, 784 F.3d 287, 290
(5th Cir.), cert. denied sub nom. Pruett v. Stephens,
135 S. Ct. 1919, 191 (2015) (quoting Heck, 512 U.S.
at 487). The policy behind this rule is the recognition
that “[§] 1983 actions, like civil tort actions, are not
appropriate vehicles to challenge the validity of
outstanding criminal judgments if such a challenge
necessarily requires the plaintiff to prove the
unlawfulness of his conviction.” Kamar v. Krolczyk,
No. 1:07-CV-0340 AWITAG, 2008 WL 2880414, at *6
(E.D. Cal. July 22, 2008) (citing Heck, 512 U.S. at
486).
In Wallace v. Kato, 549 U.S. 384 (2007), the
Supreme Court clarified that “there is no federal
tolling of constitutional torts while a plaintiff is
subject to a criminal prosecution.” Lindsey v. Myer,
No. 02:10-CV-1437-SU, 2012 WL 1114181, at *5 (D.

B - 12
Or. Feb. 13, 2012), report and recommendation
adopted, No. 2:10-CV-1437-SU, 2012 WL 1114151
(D. Or. Apr. 2, 2012) (citing Wallace, 549 U.S. at
394–95). Rather,
[i]f a plaintiff files a false-arrest claim
before he has been convicted (or files any
other claim related to rulings that will
likely be made in a pending or anticipated
criminal trial), it is within the power of the
district court, and in accord with common
practice, to stay the civil action until the
criminal case or the likelihood of a criminal
case is ended.
Wallace, 549 U.S. at 393–94.
Thus, in Kamar, for example, the plaintiff
brought claims under § 1983, alleging unlawful
search and seizures that led to three complaints filed
against the plaintiff. Kamar, 2008 WL 2880414, at
*3. However, the plaintiff waited until after the
charges were against him were dismissed to file suit.
Id. The court found that “[i]n light of Wallace, the
Heck bar did not prohibit [the p]laintiff from filing
this action until the criminal charges against him
were dismissed.” Id. at *7. Rather, the action
accrued at the time of the challenged search. Id.
“Nothing in Wallace appears to limit it to
certain types of civil rights violations.” Id. at *7.
Thus, “[a] § 1983 claim based upon illegal conduct
leading to an arrest accrues at the time of injury.”
Lindsey, 2012 WL 1114181, at *7.

B - 13
Plaintiff argues that his claims necessarily
imply the invalidity of his criminal conviction,
pointing out that “the same constitutional violations
for which [he] now sues were the very reasons the
State Court of Appeal reversed [his] criminal
conviction.” Opp’n at 5 (citing Schelly Decl. Ex. 1 at
26 n.13 (“The methamphetamine Hanou recovered .
. . formed the evidentiary basis for appellant’s
convictions Respondent does not claim the People
would be able to proceed absent this evidence.
Remanding the matter for further proceedings other
than dismissal would be an idle gesture.”)). This
appears to be true—but it does not entitle Plaintiff
to a later accrual date or to tolling under California
Code of Civil Procedure § 356.
Plaintiff’s unlawful stop and detention, false
arrest, false imprisonment, failure to screen and
properly hire, failure to train properly, and failure to
supervise and discipline claims fall within the ambit
of Wallace, and the Court finds that Wallace
expressly rejected the kind of tolling Plaintiff
requests.
As described in Wallace, had Plaintiff filed his
claims during his criminal proceedings, the Court
could have stayed the suit until the criminal case
ended. Wallace, 549 U.S. at 393–94. Here, that
would have meant staying the case until Plaintiff’s
conviction was overturned and/or dismissed. At that
point, as explained in Wallace, the civil action could
have proceeded, absent some other bar to suit. Id. at
394. As it is, Plaintiff filed his claims on September

B - 14
22, 2016, three months after the June 24, 2016
expiration date provided by tolling under California
Government Code § 945.3. Because Heck did not bar
Plaintiff from filing his claims while he was subject
to a criminal prosecution, Plaintiff’s limitation
period was not tolled under California Code of Civil
Procedure § 356. Accordingly, absent equitable
tolling, Plaintiff’s unlawful stop and detention, false
arrest, false imprisonment, failure to screen and
properly hire, failure to train properly, and failure to
supervise and discipline claims were not timely filed.

2.

Malicious Prosecution Claim

Plaintiff’s malicious prosecution claim is subject
to a different limitations period, as Defendants
acknowledge. See Reply at 8, 9. “[M]alicious
prosecution claims do not accrue until the
underlying prosecution terminates in favor of the
plaintiff.” Braunstein v. U.S. Postal Serv., No. 0516390, 2007 WL 1112620, at *1 (9th Cir. Apr. 12,
2007) (citing Heck, 512 U.S. at 484 (1994); Hartman
v. Moore, 547 U.S. 250, 257 (2006)). Here, Plaintiff’s
conviction was reversed, with directions for the trial
court to dismiss, on March 3, 2016. Accordingly, the
two-year statute of limitations for this claim expires
on March 3, 2018. Plaintiff’s malicious prosecution
claim is therefore timely.

3.

Equitable Tolling

Plaintiff does not oppose, and thus concedes,
Defendants’ argument that there is no basis to

B - 15
equitably toll Plaintiff’s statute of limitations. See
Mot. 9–11.
For the reasons explained in this Section, the
Court finds that Plaintiff’s unlawful stop and
detention, false arrest, false imprisonment, failure
to screen and properly hire, failure to train properly,
and failure to supervise and discipline claims are
time-barred. Accordingly, despite the Court’s grave
concern with Defendants’ alleged conduct and the
strength of Plaintiff’s claims, the Court is compelled
to DISMISS these claims WITH PREJUDICE.
B. Failure to State a Claim

In their Reply, Defendants argue that
Plaintiff fails to state a malicious prosecution claim
because he alleges facts that defeat such a claim.
Reply at 9. Because Defendants did not raise this
argument in their Motion, Plaintiff has not had an
opportunity to oppose. Nevertheless, the Court finds
it prudent to address Defendants’ argument and
provide guidance to Plaintiff.
“In order to prevail on a § 1983 claim of
malicious prosecution, a plaintiff ‘must show that
the defendants prosecuted [him] with malice and
without probable cause, and that they did so for the
purpose of denying [him] equal protection or another
specific constitutional right.’” Awabdy v. City of
Adelanto, 368 F.3d 1062, 1066 (9th Cir. 2004)
(insertions in original) (citing Freeman v. City of
Santa Ana, 68 F.3d 1180, 1189 (9th Cir. 1995)).
“[M]alicious prosecution with the intent to deprive a

B - 16
person of equal protection of the law or otherwise to
subject a person to a denial of constitutional rights
is cognizable under § 1983.” Id. 1069 (citing Poppell
v. City of San Diego, 149 F.3d 951, 961 (9th Cir.
1998)).
The ‘denial of a constitutional right’ element
is critical, because “no substantive due process right
exists under the Fourteenth Amendment to be free
from prosecution without probable cause.” Id. at
1069 (citing Albright v. Oliver, 510 U.S. 266, 268,
271 (2004) (plurality); id. at 275 (Scalia, J.,
concurring); id. at 277 (Ginsburg, J., concurring);
id. at 282–83 (Kennedy, J., concurring in the
judgment and joined by Thomas, J.); id. at 291
(Souter, J., concurring in the judgment)).
The Court has taken judicial notice of the
Court of Appeal decision in People v. Mills, Case No.
B257145. As Defendants points out, Plaintiff
conceded to that court that “the initial stop of the
SUV for a Vehicle Code violation was lawful.”
Schelly Decl. Ex. 1 at 13. However, Plaintiff has
alleged here that Defendant Hanou did not
“discover[] that [Plaintiff’s] registration had
expired” and that Hanou’s representations
otherwise were a “false and erroneous” basis upon
which to conduct a traffic stop. Compl. ¶ 9. Plaintiff
alleges that, to the contrary, when Hanou checked
the database, it “showed that [Plaintiff’s] vehicle
registration was correct . . . and the database showed
that it was current.” Id. ¶ 10. On this basis, Plaintiff
alleges that his criminal prosecution was instituted
“without probable cause.” Id. ¶ 52. This is sufficient
to allege lack of probable cause.

B - 17
Plaintiff also alleges that Defendants “acted
with reckless disregard of the law and of Plaintiff’s
legal rights.” Id. ¶ 54. Generally, Plaintiff alleges
that Defendants convicted him using falsified
evidence. See generally Compl. This is insufficient to
allege that Defendants’ prosecuted Plaintiff “for the
purpose of denying [him] equal protection or another
specific constitutional right.” Awabdy, 368 F.3d at
1066 (emphasis added).
Because Plaintiff has failed to allege the
‘denial of a constitutional right’ element of a
malicious prosecution claim, the Court DISMISSES
Plaintiff’s claim WITHOUT PREJUDICE.
C.

Monell Claim

To hold a city liable under § 1983 for the
violation of a constitutional right, a plaintiff must
establish liability under Monell v. Dep’t. of Soc.
Servs. of City of New York, 436 U.S. 658 (1978).
“[M]unicipalities may be held liable as ‘persons’
under § 1983 ‘when execution of a government’s
policy or custom, whether made by its lawmakers or
by those whose edicts or acts may fairly be said to
represent the official policy, inflicts the injury.’”
Price v. Sery, 513 F.3d 962, 966 (9th Cir. 2008)
(quoting Monell, 436 U.S. at 694). Four conditions
must be satisfied in order to establish municipal
liability under Monell. The plaintiff must show “‘(1)
that he possessed a constitutional right of which he
was deprived; (2) that the municipality had a policy;
(3) that this policy amounts to deliberate
indifference to the plaintiff’s constitutional right;

B - 18
and (4) that the policy is the moving force behind the
constitutional violation.’” Van Ort v. Estate of
Stanewich, 92 F.3d 831, 835 (9th Cir. 1996) (quoting
Oviatt v. Pearce, 954 F.2d 1470, 1474 (9th Cir.
1992)).
Plaintiff alleges that the City of Covina had
an “unconstitutional policy which allowed its police
officers to violate citizen’s rights through unlawful
and illegal stops, searches, and seizures, and
arrests.” Id. ¶ 81. Plaintiff alleges the City of Covina
was “deliberately indifferent to [their officers’]
widespread misconduct,” and to Plaintiff’s “right to
be free from, and protected from, harm by the police
officers and secure in his bodily integrity.” Id. ¶¶ 82,
85. As a result of this indifference, Plaintiff alleges
that he was “intentionally and negligently inflicted
with emotional distress,” “his Constitutional rights
were violated,” and he was “deprived of the rights,
privileges, and immunities secured to him by the
Constitutions of the United States and of the State
of California.” Id. ¶¶ 86–88.
However, Plaintiff’s Monell liability claim
rests on his other substantive claims. See Compl. ¶
80. To the extent the Monell claim stands alone, it
stems from the same underlying events as Plaintiff’s
other claims—the April 14, 2013 traffic stop, search,
and arrest—and is thus untimely for the same
reason. To the extent Plaintiff bases his Monell
claim on his amendable malicious prosecution claim,
the Court finds that amendment of the Monell claim
would not be futile. Accordingly, the Court
DISMISSES Plaintiff’s Monell claim WITHOUT
PREJUDICE.

B - 19

D. Dismissal of Raney
Defendants move to dismiss, and Plaintiff
does not oppose the dismissal of, Defendant Raney.
Mot. at 14–15; Opp’n at 7. The Court therefore
DISMISSES Plaintiff’s claims against Raney.
E. Disposition
For the reasons explained above, the Court
GRANTS Defendants’ Motion to Dismiss. Plaintiff
may file an amended complaint as to malicious
prosecution claim, if desired, on or before
February 27, 2017.
The Clerk shall serve this minute order on the
parties.

APPENDIX C
California Court of Appeal
opinion
(March 3, 2016)

C- 1
Case 2:16-cv-07127-DOC-RAO
Document 29-1 Filed 03/16/17
Page 23 of 58 Page ID #:273
Filed 3/3/16 P. v. Mills CA2/3
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS
California Rules of Court, rule 8.1115(a),
prohibits courts and parties from citing or
relying on opinions not certified for
publication or ordered published, except as
specified by rule 8.1115(b). This opinion has
not been certified for publication or ordered
published for purposes of rule 8.1115.
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION THREE
THE PEOPLE,
Plaintiff and Respondent,
v.
JAMES EDWARD MILLS,
Defendant and Appellant.

B257145
(Los Angeles County
Super. Ct. No.
KA101563)

C- 2
APPEAL from a judgment of the Superior
Court of Los Angeles County, Juan Carlos
Dominguez, Judge. Reversed and remanded with
directions.
Elana Goldstein, under appointment by the
Court of Appeal, for Defendant and Appellant.
Kamala D. Harris, Attorney General, Gerald
A. Engler, Chief Assistant Attorney General, Lance
E. Winters, Assistant Attorney General, Noah Hill,
Jessica C. Owen and Nathan Guttmar, Deputy
Attorneys General, for Plaintiff and Respondent.
Appellant James Edward Mills appeals from
the judgment entered following his convictions by
jury on count 1 – possession of a controlled substance
(methamphetamine), and count 2 – possession of a
smoking device, following the denial of his
suppression motion. (Health & Saf. Code, §§ 11377,
subd. (a), 11364.1, subd. (a)(1); Pen. Code, § 1538.5.)1
The court suspended imposition of sentence and
placed him on probation for 18 months. We reverse
and remand with directions.
ISSUES
Appellant claims the trial court (1)
erroneously denied his Penal Code section 1538.5
1

A detailed recitation of the facts of the offenses is
unnecessary to resolve this appeal. It is sufficient to note that
on April 14, 2013, in West Covina, appellant was driving a
Ford Escape containing methamphetamine and a
methamphetamine pipe.

C- 3
suppression motion and (2) erroneously denied his
Pitchess2 motion.
DISCUSSION
The Trial Court Partially Erred by Denying
Appellant’s Suppression Motion.
1. Suppression Proceedings at the Preliminary
Hearing.

a. People’s Evidence.
(1) Events Leading to the Stop of the SUV.
At appellant’s preliminary hearing, appellant
made a Penal Code section 1538.5 suppression
motion and the magistrate indicated it would be
heard concurrently with the preliminary hearing.
Covina Police Officer Terrence Hanou testified as
follows. About 4:20 p.m. on April 14, 2013, Hanou
was in his marked police car on the west side of the
Fairfield Motel in West Covina when appellant,
nearby, saw him. Appellant had been walking from
the lobby of the motel. Appellant quickly drove a
Ford Escape SUV around the motel, onto the street,
and stopped at a nearby Best Western Motel. Hanou
conducted a traffic stop of the SUV. Hanou stopped
the SUV because its registration tags had expired
and Hanou believed 2014 tags on the SUV’s license
plate were fraudulent. Moreover, when Hanou
stopped the SUV, he thought it was suspicious that
appellant had driven from one hotel to the next.
2

Pitchess v. Superior Court (1974) 11 Cal.3d 531 (Pitchess).

C- 4
(2) The Prolonging of the Detention Prior
to the Search of the SUV.
Hanou testified about the circumstances in
which appellant revealed to Hanou that appellant
had a firearm.
Hanou testified he contacted
appellant, the sole occupant of the SUV, and asked
for his license, registration, and insurance. Hanou
testified, “He provided the paperwork to me and I
asked him if he was on probation or parole or if he
had any weapons in the vehicle.” (Italics added.)
The following also occurred: “Q. [The Prosecutor]: .
. . So you are asking him for documentation and he
hands the documents to you; right? [¶] A. Correct.
[¶] Q. At which time do you ask him whether he’s
on probation or parole and if he has weapons in the
car? [¶] A. At the same time.” (Italics added.)
Appellant told Hanou that appellant had a “firearm
inside the vehicle.” When appellant said that,
Hanou believed that maybe a crime was afoot.
Appellant’s counsel asked Hanou what crime, and he
testified, “[p]ossession of a handgun, possession of a
rifle, maybe it’s possessed illegally, maybe he’s a
prior felon in possession of a handgun or a weapon.
I don’t know at that point, but I’m going to
investigate it.” Hanou called for backup.
Hanou testified in more detail concerning these
events as discussed below. Appellant handed Hanou
the appropriate papers, Hanou saw the SUV was
validly licensed and the registration had been
updated, and Hanou concluded the Department of
Motor Vehicles (DMV) had not updated its
computer. Hanou determined DMV had made a
mistake. However, appellant was not free to leave

C- 5
because Hanou was still conducting his traffic stop.
The following then occurred during crossexamination: “Q. And what was the basis of a traffic
stop for registration violation after you determined
the registration was valid? [¶] A. This area has
numerous motels, and I had made numerous
narcotics-related investigation arrests from this
area. The fact that Mr. Mills was parked, saw me,
had went around the north side of the [Fairfield
Motel] building, had fled out the east side, onto
Garvey, quickly darted into another motel raised
suspicion of what he was doing.”
Hanou also testified about these events as
follows.
It appeared appellant had valid
registration. At that point Hanou was investigating
why appellant went from one motel to another. The
following then occurred: “Q. What criminal activity
was Mr. Mills involved in? [¶] A. At the time of the
stop, it was for fraud. [¶] Q. Okay. [¶] A. And we
resolved that issue. But I had asked him he was on
probation or parole and if any weapons. He told me
he had a firearm in the vehicle.” (Sic; italics added.)
Hanou provided additional detail. He testified he
asked appellant “about probation and parole.” The
following occurred: “Q. And did you make note of
whether, in your report, he told you he was on
probation or parole? [¶] A. . . . [¶] He told me that
he had a firearm in the vehicle when I asked those
questions.” (Italics added.) Hanou also testified
that when he talked to appellant, Hanou
immediately asked him six questions, i.e., “license,
insurance, registration, parole, probation and
weapons.”
The prosecutor asked why it was
important to Hanou to know whether there was a

C- 6
firearm or any weapon in the vehicle that Hanou had
stopped, and Hanou replied, “[f]or my safety and also
for the safety for the occupant of the vehicle.” Hanou
did not remember if appellant told him where the
weapon was.
After Hanou called for backup, another officer
arrived and Hanou then had appellant exit the SUV.
Hanou conducted a patdown search of appellant and
found possible contraband, i.e., $10,000, in
appellant’s right back pocket.
Hanou asked
appellant for consent to search appellant’s SUV but
appellant refused to consent. Prior to the search of
the SUV, appellant was “[o]n the front hood” of
Hanou’s police car and Hanou did not believe
appellant was in handcuffs.
(3) Hanou’s Search of the SUV.
Hanou also testified as follows.
Hanou
searched the vehicle for a weapon. He searched the
vehicle against appellant’s consent because a
weapon was in the vehicle. During the search of the
SUV, Hanou found, inter alia, the subject
methamphetamine and methamphetamine pipe, as
well as a shotgun and ammunition.3

In particular, Hanou testified he found an “unloaded
12-gauge Remington shotgun in the rear cargo area next to
approximately 125 rounds of ammunition.” Hanou also
testified “[i]n the center console I found a baggie of
methamphetamine and also in the rear cargo area in the
luggage container I found another large baggie of
methamphetamine and a methamphetamine pipe.” Hanou
further testified concerning the large baggie of
3

C- 7
Hanou also testified as follows. The cargo area was
immediately accessible to appellant. The weapon
was immediately accessible to appellant because he
was driving an SUV that had no trunk but only a
cargo area behind a second row of seats. Appellant
could not have reached the firearm from the driver’s
seat but could have reached it if he had crawled out
the driver’s seat and into the back. Following the
search of the SUV, appellant was arrested. Hanou
carried a cell phone when patrolling but did not
remember whether he used it during the stop.
b. Defense Evidence.
Appellant testified, in pertinent part, as
follows. Appellant was driving the SUV and Hanou
stopped him. Hanou first asked appellant if he was
on parole or probation, and appellant replied no.
Hanou then asked if appellant had ever been
arrested, and appellant replied no. Hanou then
asked if appellant had his driver’s license,
registration, and insurance. Appellant replied yes
and presented them to Hanou. Hanou told appellant
the registration was valid. Hanou asked appellant
for consent to search his vehicle and appellant
refused to give it. Hanou walked away, spoke with
someone on a cell phone, and returned. Hanou
asked appellant if he had any “weapons” in the car.
Appellant replied yes. Appellant said “it” was in the
back where it belonged and told Hanou the weapon
methamphetamine that it was found “inside the cargo area,
inside the luggage.”

C- 8
was not loaded. The weapon was in the cargo area
of the SUV. Hanou went and made another call,
returned, and asked appellant to exit the SUV.
Appellant
complied.
Hanou
immediately
handcuffed appellant and conducted a patdown
search.
c. The Magistrate’s Ruling.
Following argument, the magistrate ruled as
follows. Hanou’s detention of appellant was lawful.
Moreover, the prolonging of the detention was
lawful. As to the prolonging, Hanou approached the
SUV and was entitled to ask the six questions during
the time it took to investigate the incident that
caused Hanou to be there in the first place. When
appellant was handing the documents to Hanou,
Hanou knew a weapon was in the SUV and the
registration was valid. Hanou was entitled to
prolong the detention because, during the “primary
detention,” appellant said there was a weapon in the
SUV. The search of the SUV was lawful under
Michigan v. Long (1983) 463 U.S. 1032 [77 L.Ed.2d
1201] (Long). Moreover, because appellant said
there was a firearm in the SUV, the search of the
SUV for the firearm was lawful under Arizona v.
Gant (2009) 556 U.S. 332 [173 L.Ed.2d 485] (Gant)
and United States v. Ross (1982) 456 U.S. 798, 825
[72 L.Ed.2d 572] (Ross). The magistrate denied the
suppression motion.

C- 9

2. Appellant’s Renewed Suppression Motion.
On May 29, 2014, appellant filed in the trial
court a Penal Code section 1538.5 suppression
motion. Appellant sought renewal of the motion
based on evidence in a police dashboard camera
video.4 On June 3, 2014, pursuant to the parties’
agreement, the trial court viewed the video,
discussed below.
a. The Video (People’s Exhibit No. 3).

People’s exhibit No. 3 consists of the video and
an accompanying video player. The exhibit reflects
that the video recorded events beginning about 4:20
p.m. on April 14, 2013, and the video was about 33

Where, as here, appellant’s suppression motion was
denied at the preliminary hearing and appellant renewed it
before the trial court, the evidence at the special hearing in the
trial court on the renewed motion was, pursuant to Penal Code
section 1538.5, subdivision (i), limited, in this case, to the video
(i.e., evidence presented that was “agreed to by all parties”
(Pen. Code, § 1538.5, subd. (i)) plus the preliminary hearing
transcript. The video was defense exhibit A. That exhibit, so
designated, is not before this court. Appellant asserts People’s
exhibit No. 3, admitted into evidence at trial, is a dashboard
camera video of the events. This court has viewed People’s
exhibit No. 3. There is no dispute there was only one video
recording of the events, whether reflected in defense exhibit A
or People’s exhibit No. 3, nor is there any dispute People’s
exhibit No. 3 accurately reflects those events. People’s exhibit
No. 3 does not contain audio of any statements clearly
identifiable as made by appellant or the police.
4

C- 10
minutes long. The exhibit, considered with Hanou’s
testimony, provides substantial evidence as follows.
(1) Events from Appellant’s Exit from
His SUV to Franco Escorting Him Away from the
Police Car.
At 4:26 p.m., appellant exited his car and,
during the next two minutes, the following occurred.
Hanou and another officer (hereafter, Franco)
handcuffed appellant, then Hanou, followed by
Franco, escorted appellant to the front of the police
car (which was behind the SUV). Hanou left
appellant there with Franco, then Franco escorted
appellant to the passenger side of the police car,
permitting a citizen’s car to back out and exit
between the SUV and police car.5
(2) Events from the Opening of the Cargo
Door to Hanou’s Initial Entry into the Driver’s Area.
Below are events from the time Hanou opened
the SUV’s rear door (cargo door) to the cargo area to
the time he initially entered the driver’s area (that
entry being his first opportunity to search the center
console and find methamphetamine). At “16:28:55”
p.m.,6 Hanou, behind the SUV, opened the cargo
The citizen’s car made a number of attempts to
maneuver out of its parking place, obscuring some events
before eventually leaving.
5

Hereafter, where the exhibit used military time, e.g.,
16:28:55, we will use civilian time (4:28:55) with the
understanding the events occurred in the afternoon.
6

C- 11
door. At 4:28:56, the reflections of appellant and
Franco on the side of the citizen’s car showed the two
standing outside the passenger side of the police car.
At 4:29:01, Hanou removed from the cargo area red
luggage and, without opening it, put it on the ground
behind the SUV. At 4:29:10, Hanou removed from
the cargo area an open square box and looked in it
in passing while putting it on the ground behind the
SUV. At 4:29:12, appellant and Franco were visible
on the passenger side of the police car through
reflections from the citizen’s car, which was still
trying to leave. At 4:29:14, Hanou removed from the
cargo area a gray rectangular box and, without
opening it, put it on the ground.
From 4:29:22 to 4:30:21, Hanou, behind the
SUV, removed from the cargo area a firearm case,
removed a shotgun from the case, examined the
shotgun, appeared to talk on a hand-held device,
then put the shotgun back in the case and put the
case on the ground. During this period, appellant
and Franco, at 4:29:28, were visible on the passenger
side of the police car through their reflections from
the citizen’s car, and, at 4:29:50, Franco moved
appellant back to the front of the police car. From
4:30:26 to 4:30:34, Hanou appeared to continue to
search the cargo area, then left the cargo area
(although the view of portions of Hanou’s actions
during this period are blocked by appellant’s body).
From 4:31:13 to 4:31:19, Hanou entered the driver’s
area, looked under the driver’s seat, then left the
Subsequent references to areas (e.g., the driver’s area, or the
front passenger area) are to areas of the SUV.

C- 12
driver’s area. (This is the first opportunity Hanou
had to find the baggie of methamphetamine that,
according to his preliminary hearing testimony, he
found in the center console.)
(3) Events from the Initial Entry into
the Left Rear Passenger Area to the Entry into the
Red Luggage.
Below are events from the time Hanou
initially entered the left rear passenger area to the
time he removed and entered the red luggage.
(There is no dispute this was the luggage in which,
according to Hanou’s preliminary hearing
testimony, he found a baggie of methamphetamine.)
At 4:31:23, Hanou entered the left rear passenger
area and appeared to search that area, and
appellant’s body blocked the view of Hanou’s
subsequent actions until 4:31:43.
4:31:43, Hanou was standing outside the left
rear passenger side. He remained there until, at
4:31:53, he left that area. (Hereafter, we will refer
to this period as period one. This was one of several
periods, discussed below, that prolonged appellant’s
detention.) Hanou then walked around the front of
the SUV and, from 4:32:19 to 4:33:08, appeared to
search the right rear passenger area, then left that
area. At 4:33:08, Hanou left the right rear passenger
area, then walked to an area to the right of the police
car and out of view until, at 4:36:03, he returned to
the SUV from an area to the right of the police car.
(Hereafter, period two.) From 4:36:09 to 4:36:33,
Hanou, behind the SUV, again reached into the
firearm case (which he earlier had put on the

C- 13
ground), retrieved documents from the case, and
later returned them to the case. (Hereafter, period
three). At 4:36:38, Hanou left the cargo area again.
After Hanou left the cargo area, Hanou, from
4:36:55 to 4:37:22, was using a hand-held device to
talk with someone while he was standing outside the
left rear passenger area and later walking to the
front left corner of the SUV. From 4:37:22 to 4:37:23,
he stopped using his hand-held device, then walked
back towards the rear of the SUV. (Hereafter, period
four.) From 4:37:27 to 4:38:18, Hanou was in the
driver’s area. From 4:39:52 to 4:41:14, the following
occurred. Hanou left the SUV, then returned to
appellant and talked to him. Hanou checked
appellant’s handcuffs and eventually escorted him
towards the back of the passenger side of the police
car and out of view. A sound of a car door is audible.
Appellant is never again seen in the video.
From 4:41:26 to 4:41:49, Hanou quickly
entered and exited the driver’s area. From 4:41:51
to 4:41:59, Hanou, holding papers, walked towards
the passenger side of the police car and out of view.
(Hereafter, period five.) From 4:42:41 to 4:44:22, the
following occurred. Hanou entered the driver’s area.
He later entered the left rear passenger area.
Franco walked (without appellant) from the police
car to the SUV and entered the driver’s area. Both
officers later concurrently exited the SUV. From
4:44:22 to 4:44:44, the officers conversed.
(Hereafter, period six.) From 4:44:44 to 4:45:16,
Hanou, behind the SUV, entered the cargo area

C- 14
again, and Hanou removed from the cargo area a
brown bag and put it on the ground.7
From 4:46:44 to 4:48:59, the following
occurred. Hanou picked up the red luggage (which
he earlier had put on the ground), put it in the cargo
area, and made motions as if he was searching it (his
back to the video camera). (This appears to be the
first opportunity Hanou had to find the baggie of
methamphetamine
that,
according
to
his
preliminary hearing testimony, he found in
luggage.) Hanou appeared to take an item from in
front of him (from the area in which he had placed
the red luggage) and put the item on the ground.
Hanou then put the red luggage and items on the
ground.
(4) Subsequent Events to the Closing
of the Cargo Door.
From 4:49:03 to 4:50:52, the following
occurred. Hanou took a gray item that was on or
inside the open square box and made motions as if
he was searching the gray item (his back to the video
camera). He later left the cargo area. Hanou
subsequently entered the right rear passenger area,
then the right front passenger area. Hanou later
entered the lower portion of the right front
passenger area.
Hanou returned to the area behind the SUV
and, at 4:53:18, searched the gray rectangular box,
Based on Hanou’s testimony and the video, the brown
bag was not a baggie in which he found methamphetamine.
7

C- 15
then, at 4:53:24, searched the open square box (each
of which he earlier had put on the ground). At
4:54:10, Hanou closed the cargo door. On a number
of occasions from the time appellant was last seen in
the video to the time Hanou closed the cargo door, a
person (presumably appellant) was clearing the
person’s throat in the police car.
b. The Trial Court’s Ruling.
After argument at the special hearing, the
court stated, inter alia, “based on the totality of the
circumstances, and for the reasons very well
articulated by [the magistrate] at the preliminary
hearing, the court denies the 1538.5.”
3. Analysis.
Appellant claims the trial court erroneously
denied his Penal Code section 1538.5 suppression
motion. He concedes the initial stop of the SUV for
a Vehicle Code violation was lawful, but argues the
prolonging of the stop of the SUV, and the search of
the SUV, violated the Fourth Amendment.
a. Hanou’s Weapons Question Did Not
Unlawfully Prolong the Stop.
Appellant cites People v. McGaughran (1979)
25 Cal.3d 577 (McGaughran) and Williams v.
Superior Court (1985) 168 Cal.App.3d 349
(Williams), for the proposition his detention was
unlawfully prolonged where “Hanou, after obtaining
all the information he needed in order to decide that

C- 16
appellant’s license tags were in good standing, and a
citation was therefore unnecessary, chose to ask a
series of investigative questions which were
unrelated to the suspected Vehicle Code violation.”
(AOB/15) (Italics added.)
Concerning prolonged detentions following
traffic stops, People v. Bell (1996) 43 Cal.App.4th
754 (Bell), is instructive. In Bell, an officer stopped
a car for speeding. Stewart was the driver and the
defendant was a passenger. The officer conversed
with Stewart while writing a ticket, then gave
Stewart the speeding ticket. (Id. at pp. 757, 759.)
Stewart made statements leading the officer to
suspect Stewart and the defendant were
transporting drugs. (Id. at pp. 757-758.) The
defendant claimed Stewart was unlawfully detained
for questioning unrelated to the purposes of the
traffic stop and Stewart’s detention was unlawfully
prolonged. (Id. at pp. 758, 760.)8
Bell indicated the leading California case
concerning the permissible scope of a traffic stop was
McGaughran. (Bell, supra, 43 Cal.App.4th at p.
765.) Bell also discussed Williams, a similar case.
(Bell, at pp. 766-767.) Bell stated, “McGaughran and
Williams indicate that investigative activities
beyond the original purpose of a traffic stop are
permissible as long as they do not prolong the stop
beyond the time it would otherwise take. Federal
cases are generally in accord.” (Bell, supra, 43
Bell earlier had concluded the defendant therein had
“standing” to challenge the scope of Stewart’s detention. (Bell,
supra, 43 Cal.App.4th at p. 765.)
8

C- 17
Cal.App.4th at p. 767, italics added.) United States
v. Shabazz (5th Cir. 1993) 993 F.2d 431 (Shabazz)
was one of the federal cases cited by Bell. Bell later
observed, “[t]he appellate court [in Shabazz], . . .
stated, ‘[W]e reject any notion that a police officer’s
questioning, even on a subject unrelated to the
purpose of the stop, is itself a Fourth Amendment
violation. . . . Mere questioning . . . is neither a
search nor a seizure.’
(Citation.)
[Shabazz]
explained that the nature of the questioning during
a detention might be relevant, but only as evidence
of prolongation—‘that the justification for the
original detention no longer supports its
continuation.’ (Citation.)” (Bell, at p. 768, italics
added; People v. Brown (1998) 62 Cal.App.4th 493,
496-500 [accord].) Bell later stated, “[h]ere, [the
officer] testified that his ‘conversation’ with Stewart
took place while he was writing the speeding ticket
and did not add to the delay otherwise resulting from
the traffic stop.” (Bell, at p. 767, italics added.) Bell
concluded the officer’s questioning did not
unlawfully prolong Stewart’s detention. (Id. at p.
758.)
On the other hand, Rodriguez v. United States
(2015) ___ U.S. ___ [191 L.Ed.2d 492] (Rodriguez),
exemplifies an unlawfully prolonged detention.
Rodriguez stated, “[t]his case presents the question
whether the Fourth Amendment tolerates a dog
sniff conducted after completion of a traffic stop. We
hold that a police stop exceeding the time needed to
handle the matter for which the stop was made
violates
the
Constitution’s
shield
against
unreasonable seizures. A seizure justified only by a
police-observed
traffic
violation,
therefore,

C- 18
‘become[s] unlawful if it is prolonged beyond the time
reasonably required to complete th[e] mission’ of
issuing a ticket for the violation. [Citation.]” (Id. at
p. ___ [191 L.Ed.2d at p. 496], italics added.) In
Rodriguez, seven or eight minutes elapsed from the
time the canine officer issued the written warning to
the time the dog alerted to the presence of drugs.
(Id. at p. ___ [191 L.Ed.2d at p. 497].)9
In the present case, Hanou testified he asked
for appellant’s license, registration, and insurance,
and “[appellant] provided the paperwork to me and
I asked . . . if he had any weapons in the vehicle.”
(Italics added.) Hanou also testified he was asking
appellant for documentation and “he hands the
documents to [Hanou]” (italics added) and “[a]t the
same time” (italics added), Hanou “ask[ed]
A recent case, United States v. Evans (2015) 786 F.3d
779 (Evans), applied Rodriguez. In Evans, an officer stopped
the defendant for traffic violations. After all tasks tied to those
traffic violations had been, or reasonably should have been,
completed, the officer detained the defendant while conducting
an eight-minute ex-felon registration check, later indicated to
the defendant that the defendant could go, but subsequently
further detained him during a “dog sniff” of his car. (Evans, at
pp. 782-784.) Evans stated, “[a]pplying Rodriguez, we hold
that, by conducting an ex-felon registration check and a dog
sniff, both of which were unrelated to the traffic violation for
which he stopped Evans, [the officer] ‘prolonged [the traffic
stop] beyond the time reasonably required to complete’ his
traffic ‘mission,’ and so violated the Fourth Amendment, unless
there was independent reasonable suspicion justifying each
prolongation. [Citation.]” (Evans, at p. 786, italics added.)
Evans remanded to the district court to permit it to consider in
the first instance whether reasonable suspicion justified each
such prolongation. (Id. at pp. 788-789.)
9

C- 19
[appellant] . . . if he has weapons in the car.” (Italics
added.)
Thus, there was substantial evidence
Hanou’s activity of asking whether appellant had
any weapons in the SUV occurred while Hanou was
receiving documentation related to the traffic stop
and did not add to the delay otherwise resulting from
the traffic stop. Hanou’s weapons question did not
violate the Fourth Amendment by unlawfully
prolonging appellant’s detention.
Appellant argues the contrary as to Hanou’s
weapons question, citing the colloquy in which
appellant’s counsel asked Hanou, “And what was the
basis of a traffic stop for registration violation after
you determined the registration was valid?” (Italics
added.) However, Hanou, in his reply, did not
expressly state that, after he determined the
registration was valid, the narcotics investigation
was “the,” i.e., the sole, basis for prolonging the stop.
Our factual review is limited to determining
whether substantial evidence supported the express
or implied factual findings of the magistrate. (Cf.
People v. Soun (1995) 34 Cal.App.4th 1499, 1507.)
There was, as previously discussed, substantial
evidence Hanou properly asked the weapons
question while he was investigating the Vehicle
Code violation supporting the initial stop.
b. The Search of the SUV Was Unlawful.
(1) Pertinent Law.
Appellant also argues Hanou did not have
“sufficient cause” to search the SUV. He argues,
inter alia, “[t]he mere fact that appellant had a gun

C- 20
in his vehicle was not unlawful, and was not
automatically an officer safety concern.”
Concerning protective weapons searches, Terry v.
Ohio (1968) 392 U.S. 1 [20 L.Ed.2d 889] (Terry)
discussed the Fourth Amendment contours of a
lawful “protective seizure [of a person] and search
for weapons” (id. at p. 29), and Long, relying on
Terry, discussed when protective searches of vehicles
for weapons are permissible under the Fourth
Amendment.
In Terry, in pertinent part, an officer believed
based on personal observations that the defendant
Terry and two other men were involved in casing
activity preparatory to a robbery likely to involve
weapons.
The officer approached the three,
identified himself as a police officer, and asked for
their names.
When the men later mumbled
something, the officer grabbed the defendant, spun
him around, patted down the outside of his clothing,
and felt a gun in his overcoat pocket. The officer
reached in the pocket but was unable to remove the
gun, so he later removed the defendant’s overcoat
and took the gun from the pocket. (Terry, supra,
392 U.S. at pp. 5-7, 28.)
Terry stated, “We . . . decide nothing today
concerning the constitutional propriety of an
investigative ‘seizure’ upon less than probable cause
for purposes of ‘detention’ . . . .” (Terry, supra, 392
U.S. at p. 19, fn. 16, italics added.) Instead, Terry
focused upon whether a seizure of a person for the
purpose of searching for weapons, and the later said
search for weapons, i.e., a “protective seizure and
search for weapons” (id. at p. 29), violated the
Fourth Amendment.

C- 21
The high court observed that “[t]he question
is whether in all the circumstances of this on-thestreet encounter, [Terry’s] right to personal security
was violated by an unreasonable search and
seizure.” (Terry, supra, 392 U.S. at p. 9.) Terry
acknowledged arguments that police needed an
escalating set of flexible responses, graduated in
relation to the amount of information they possess.
(Id. at p. 10.) However, Terry also acknowledged
arguments that judicial acquiescence to the
compulsive field interrogation techniques at issue
would constitute “abdication of judicial control over,
and indeed an encouragement of, substantial
interference with liberty and personal security by
police officers whose judgment is necessarily colored
by their primary involvement in ‘the often
competitive enterprise of ferreting out crime.’ ” (Id.
at p. 12.)
Terry later stated, “[the officer] ‘seized’
petitioner and subjected him to a ‘search’ when he
took hold of him and patted down the outer surfaces
of his clothing. We must decide whether at that
point it was reasonable for [the officer] to have
interfered with petitioner’s personal security as he
did. [Fn. omitted.] And in determining whether the
seizure and search were ‘unreasonable’ our inquiry
is a dual one -- whether the officer’s action was
justified at its inception, and whether it was
reasonably related in scope to the circumstances
which justified the interference in the first place.”
(Terry, supra, 392 U.S. at pp. 19-20.)
Terry, considering “the nature and extent of
the governmental interests involved” (Terry, supra,
392 U.S. at p. 22), indicated there was a

C- 22
governmental interest in crime detention and
prevention, and the officer properly approached the
defendant to investigate a possible robbery. (Ibid.)
However, Terry stated, “The crux of this case, . . . is
not the propriety of [the officer’s] taking steps to
investigate petitioner’s suspicious behavior, but
rather, whether there was justification for [the
officer’s] invasion of Terry’s personal security by
searching him for weapons in the course of that
investigation. We are now concerned with more
than the governmental interest in investigating
crime; in addition, there is the more immediate
interest of the police officer in taking steps to assure
himself that the person with whom he is dealing is
not armed with a weapon that could unexpectedly
and fatally be used against him.” (Id. at p. 23, italics
added.)
Terry later concluded, “[w]hen an officer is
justified in believing that the individual whose
suspicious behavior he is investigating at close
range is armed and presently dangerous to the
officer or to others, it would appear to be clearly
unreasonable to deny the officer the power to take
necessary measures to determine whether the
person is in fact carrying a weapon and to neutralize
the threat of physical harm.” (Terry, supra, 392
U.S. at p. 24, italics added.)
Terry, turning to “the nature and quality of
the intrusion on individual rights” (Terry, supra, 392
U.S. at p. 24) noted “[a] search for weapons in the
absence of probable cause to arrest, however, must,
like any other search, be strictly circumscribed by
the exigencies which justify its initiation. [Citation.]
Thus it must be limited to that which is necessary for

C- 23
the discovery of weapons which might be used to
harm the officer or others nearby.” (Id. at pp. 25-26;
italics added.) Terry later concluded “there must be
a narrowly drawn authority to permit a reasonable
search for weapons for the protection of the police
officer, where he has reason to believe that he is
dealing with an armed and dangerous individual,
regardless of whether he has probable cause to
arrest the individual for a crime. The officer need
not be absolutely certain that the individual is
armed; the issue is whether a reasonably prudent
man in the circumstances would be warranted in the
belief that his safety or that of others was in danger.
[Citations.]” (Id. at p. 27, italics added.)
Terry later discussed whether the defendant’s
“search and seizure . . . were reasonable, both at
their inception and as conducted.” (Terry, supra, 392
U.S. at pp. 27-28.) As to inception, Terry noted the
officer believed the defendant was engaged in casing
activity preparatory to an armed robbery, and that
“on the facts and circumstances [the officer] detailed
before the trial judge a reasonably prudent man
would have been warranted in believing petitioner
was armed and thus presented a threat to the
officer’s safety while he was investigating his
suspicious behavior.” (Id. at p. 28.) Accordingly,
Terry indicated the officer’s “decision at that point to
seize Terry and pat his clothing for weapons” was not
improper.
Instead, Terry stated, “the record
evidences the tempered act of a policeman who in the
course of an investigation had to make a quick
decision as to how to protect himself and others from
possible danger, and took limited steps to do so.”
(Ibid., italics added.)

C- 24
As to the manner in which the seizure and
search were conducted, Terry stated, inter alia,
“evidence may not be introduced if it was discovered
by means of a seizure and search which were not
reasonably related in scope to the justification for
their initiation. [Citation.]” (Terry, supra, 392 U.S.
at p. 29, italics added.) Terry observed, “[t]he sole
justification of the search in the present situation is
the protection of the police officer and others nearby,
and it must therefore be confined in scope to an
intrusion reasonably designed to discover guns,
knives, clubs, or other hidden instruments for the
assault of the police officer.” (Ibid., italics added.)
Terry concluded the “scope of the search”
(Terry, supra, 392 U.S. at p. 29) in that case
presented no serious problem because the officer
patted down the outer clothing of petitioner, felt a
gun in the overcoat pocket, and then merely reached
for and removed the gun. (Id. at pp. 29-30.) The
officer “confined his search strictly to what was
minimally necessary to learn whether the men were
armed and to disarm them once he discovered the
weapons. He did not conduct a general exploratory
search for whatever evidence of criminal activity he
might find.” (Id. at p. 30, italics added.) Terry later
observed the officer “carefully restricted his search to
what was appropriate to the discovery of the
particular items which he sought.” (Ibid., italics
added.)
As mentioned, Long pertained to protective
searches of vehicles. Long acknowledged at the
outset that Terry did not “expressly address whether
such a protective search for weapons could extend to
an area beyond the person in the absence of probable

C- 25
cause to arrest.” (Long, supra, 463 U.S. at p. 1034.)
However, Long later stated, “[w]e hold that the
protective search of the passenger compartment [at
issue in Long] was reasonable under the principles
articulated in Terry and other decisions of this
Court.” (Id. at p. 1035.)
In Long, a defendant speeding and driving
erratically in a rural area after midnight drove his
car into a ditch. The defendant, who had been the
sole occupant of the car, met officers at the rear of
the car and they asked for, inter alia, registration
information. The door on the driver’s side of the car
had been left open. An officer thought the defendant
appeared to be under the influence. The defendant
began walking towards the open door of his car and
the officers followed him and observed a long
hunting knife on the driver’s side floorboard. The
officers conducted a patdown search which revealed
no weapons.
An officer, using his flashlight,
illuminated the interior of the car to search for other
weapons.
After the officer saw something
protruding from under the front seat armrest, he
knelt in the car and lifted the armrest. The officer
saw on the front seat an open pouch containing what
appeared to be marijuana and subsequently
arrested the defendant. Police decided to impound
the car and found in the trunk 75 pounds of
marijuana. (Long, supra, 463 U.S. at pp. 10351036.)
Long observed that principles in past high
court decisions compelled the conclusion that “the
search of the passenger compartment of an
automobile, limited to those areas in which a
weapon may be placed or hidden, is permissible if

C- 26
the police officer possesses a reasonable belief based
on ‘specific and articulable facts which, taken
together with the rational inferences from those
facts, reasonably warrant’ the officer in believing
that the suspect is dangerous and the suspect may
gain immediate control of weapons.” (Long, supra,
463 U.S. at p. 1049, italics added.)
Long indicated that, under the circumstances
in that case, the officers reasonably believed the
defendant posed a danger if he were permitted to
reenter his vehicle. (Long, supra, 463 U.S. at p.
1050.) Long then observed, “[t]he subsequent search
of the car was restricted to those areas to which [the
defendant] would generally have immediate control,
and that could contain a weapon. The trial court
determined that the leather pouch containing
marihuana could have contained a weapon. . . . It is
clear that the intrusion was ‘strictly circumscribed
by the exigencies which [justified] its initiation.’
[Citation.]” (Id. at pp. 1050-1051, fn. omitted.)
Long later stated, “[i]n evaluating the validity
of an officer’s investigative or protective conduct
under Terry, the ‘[touchstone] of our analysis . . . is
always “the reasonableness in all the circumstances
of the particular governmental invasion of a citizen’s
personal security.” ’ [Citation.] In this case, the
officers did not act unreasonably in taking
preventive measures to ensure that there were no
other weapons within [the defendant’s] immediate
grasp before permitting him to reenter his
automobile. Therefore, the balancing required by
Terry clearly weighs in favor of allowing the police
to conduct an area search of the passenger
compartment to uncover weapons, as long as they

C- 27
possess an articulable and objectively reasonable
belief that the suspect is potentially dangerous.”
(Long, supra, 463 U.S. at p. 1051, italics added.)
In Long, the high court concluded the officers
could reasonably fear the defendant could injure
them even if the defendant “was effectively under
their control during the investigative stop and could
not get access to any weapons that might have been
located in the automobile.” (Long, supra, 463 U.S.
at p. 1051, italics added.) This was so because (1) a
suspect in the defendant’s position “might . . . break
away from police control and retrieve a weapon from
his automobile” (ibid.), (2) “if the suspect is not
placed under arrest, he will be permitted to reenter
his automobile, and he will then have access to any
weapons inside” (id. at p. 1052), or (3) “the suspect
may be permitted to reenter the vehicle before the
Terry investigation is over, and again, may have
access to weapons.” (Ibid.)10

See United States v. Holmes (2004) 376 F.3d 270, 280,
stating, “we hold that where a suspect is an occupant or recent
occupant of a vehicle at the initiation of a Terry stop, and where
the police reasonably believe the suspect may be dangerous
and that there may be readily-accessible weapons in his
vehicle, Long authorizes a protective search of the vehicle for
weapons, provided the police harbor a reasonable belief that
the suspect may gain access to the vehicle at a time when that
access would endanger the safety of the officers conducting the
stop or of others nearby -- including the reasonable belief that
the suspect will return to the vehicle following the conclusion of
the Terry stop.” (Italics added.) (Accord, United States v.
Brown (1998) 133 F.3d 993, 998-999.)

10

C- 28
The Michigan Supreme Court had held that
the search of the interior of the car at issue in Long
was not justified as a protective search, and the
marijuana taken from the trunk had to be
suppressed as fruit of the illegal search of the car’s
interior. (Long, supra, 463 U.S. at p. 1037.) The
high court, having held the protective search of the
passenger compartment was proper, reversed the
judgment of the Michigan Supreme Court and, since
the latter court had not passed upon the issue of
whether the search of the trunk was lawful under
the Fourth Amendment, the high court remanded to
permit a determination of that issue. (Id. at p.
1053.)
(2) Application of the Law to the Facts.
Appellant seeks suppression of (1) the
methamphetamine Hanou found in the center
console and (2) the methamphetamine and
methamphetamine pipe Hanou found in the luggage
in the cargo area. We note the sole reason Hanou
gave as supporting his search of the passenger
compartment and cargo area of the SUV was he was
searching for a weapon for safety reasons, i.e., he
was conducting a protective weapons search.11

Of course, we realize “ ‘ “[T]he fact that the officer does
not have the state of mind which is hypothecated by the
reasons which provide the legal justification for the officer’s
action does not invalidate the action taken as long as the
circumstances, viewed objectively, justify that action.” ’
[Citation.]” (People v. Woods (1999) 21 Cal.4th 668, 680.)
11

C- 29
(a)
The Methamphetamine Recovered
from the Center Console Must Be Suppressed.

The threshold issue is whether the initial
search of the cargo area effected by the opening of
the cargo door was justified as a protective weapons
search. We have found no published California case
upholding the search of such an area as a lawful
protective weapons search. Long, of course, upheld
a protective weapons search of the passenger
compartment of a car that had a trunk. Long had no
occasion to decide whether a cargo area such as the
one in this case could be subjected to a lawful
protective weapons search, and Long’s holding does
not control this case.
Arguably, the risk to officer safety attending
accessibility of a weapon located in a cargo area such
as the one in this case is greater than the safety risk
attending accessibility of a weapon located in a
common trunk accessible only by a rear trunk door.
Such a trunk is completely inaccessible from the
passenger compartment, a fortiori, no one in the
passenger compartment can reach inside such a
trunk. On the other hand, the cargo area of the SUV
was not completely inaccessible from the passenger
compartment. Instead, Hanou testified to the effect
the cargo area was immediately accessible to
appellant in the sense the cargo area was
immediately accessible from the passenger
compartment (so that, e.g., if a person had been
seated in the back seat, the person could have
reached into the cargo area).
However, appellant was the driver and sole
occupant of the SUV. Whether or not the cargo area

C- 30
was, in a general sense, immediately accessible from
the passenger compartment, Hanou testified
appellant could not reach the cargo area from the
driver’s seat and could not have reached the cargo
area unless he climbed in the back. Moreover, the
cargo area and a common trunk are alike to the
extent they hold cargo and are not designed for
driver or passenger seating. Absent any other
consideration, if police have a driver exit the driver’s
side of a car, the driver, if released, will in all
likelihood simply return to the driver’s seat, not to a
cargo area or trunk. There was no evidence that if
appellant had been released, he would have headed
towards the cargo area containing the shotgun, as
opposed to the driver’s side of the passenger
compartment from which he had exited.
In Long, after the defendant exited his car,
police ultimately followed him while, at night in a
rural area, he was heading to the open door of his
car that contained a long hunting knife on the
driver’s side floorboard. That is, the knife was in the
passenger compartment. An officer, looking for
additional weapons, saw an object protruding from
under the front seat armrest, again, in the passenger
compartment. After observing that object, the
officer searched the passenger compartment. We
note Long, stated, inter alia, “a Terry suspect in
Long’s position [might] break away from police
control and retrieve a weapon from his automobile.”
(Long, supra, 463 U.S. at p. 1051, italics added.)
On the other hand, Hanou stopped appellant
during the afternoon in a commercial area, and
Hanou’s testimony provided no evidence that it was
more likely the firearm was in the cargo area than

C- 31
in the passenger compartment.
Appellant’s
testimony that he told Hanou that “it” was in the
“back” where it belonged did not make clear whether
appellant was referring to the cargo area or the back
seat. Nonetheless, Hanou first searched the cargo
area. Unlike the defendant in Long, Hanou was in
handcuffs virtually from the moment he exited the
SUV.
Moreover, prior to any search of the SUV,
Franco at one point (4:28:44) moved appellant from
the front of the police car to its side to permit the
citizen’s car to exit. From 4:29:22 to 4:29:36, Hanou,
behind the SUV, seized the firearm case from the
cargo area, removed the shotgun from the case, and
examined the shotgun. At 4:29:50, with Hanou
behind the SUV and in possession of the shotgun,
Franco returned appellant to the front of the police
car, about a car length from Hanou. Appellant was
even closer to the shotgun than he had been before
it was removed from the cargo area, and there was
ammunition in the cargo area, i.e., ammunition that,
for all the record reflects, may have been shotgun
ammunition. At 4:30:21, Hanou put the shotgun
back in the case and put it on the ground behind the
SUV, i.e., even closer to appellant, and with
ammunition in the cargo area. Any weapons
searches of the passenger’s compartment for “safety”
(including the search of the center console from
which Hanou seized methamphetamine) occurred
later.
We hold, first, that the initial search of the
cargo area effected by the opening of the cargo door
violated the Fourth Amendment and was not

C- 32
justified as a protective weapons search.12 That
initial search was not justified even at its inception.
Moreover, Hanou’s subsequent entry into the
cargo area was not reasonably related in scope to the
circumstances which would have justified a
protective search in the first place. (Cf. Terry, supra,
392 U.S. at pp. 19-20.) That entry was not a
“necessary” measure (id. at p. 24) to determine if
We note that in United States v. Arnold (2004) 388 F.3d
237 (Arnold), the Seventh Circuit upheld, as a lawful Long
protective weapons search, a search effected by an officer
pulling down an armrest in the backseat of a car’s passenger
compartment where the armrest opened into the trunk. (Id. at
pp. 238-241.) Arnold concluded “the boundaries of the
passenger compartment under [New York v. Belton (1981) 453
U.S. 454 [69 L.Ed.2d 768] (Belton)] apply equally to the scope
of a search under Long” (Arnold, at p. 240) (assuming an officer
limited the protective weapons search to those areas that
might contain a weapon and to which the motorist might have
access). Arnold cited federal appellate court cases that relied
on Belton to hold “a search under Belton encompasses cargo
spaces of sports utility vehicles, hatchbacks, and station
wagons.” (Arnold, at p. 240.) Arnold relied on those cases to
conclude the search in Arnold was a lawful protective weapons
search.
(Id. at pp. 238-241.)
However, Arnold is
distinguishable from the present case. In Arnold, the officer
stopped the car the defendant was driving, and Arnold noted
that “[a]fter [the officer] observed Arnold turn around to look
back at him, Arnold then wormed his way between the
passenger and the driver’s seats into the back seat. [The
officer] testified that Arnold appeared to have been either
retrieving or placing something in the back seat, although [the
officer] could not see below Arnold’s shoulders. Arnold then
returned to the driver’s seat.” (Id. at p. 238.) The search
effected by pulling down the armrest occurred later. (Id. at
pp. 238-239.) Appellant did not do what the defendant did in
Arnold.
12

C- 33
appellant was carrying a weapon and to neutralize
the threat of physical harm (ibid.), was not an entry
“limited to that which is necessary for the discovery
of weapons which might be used to harm the officer
or others nearby” (id. at pp. 25-26; italics added),
and was not “minimally necessary” (id. at p. 30) to
learn whether appellant was armed and to disarm
him once appellant told Hanou that appellant had a
firearm (cf. ibid.). The entry was not “restricted to
those areas to which [appellant] would generally
have immediate control” (Long, supra, 463 U.S. at p.
1050, italics added) and was not a preventive
measure taken to ensure there were no weapons in
appellant’s “immediate grasp” (id. at p. 1051) if he
had been permitted to reenter the SUV.
Although Hanou testified to the effect he
recovered methamphetamine during a protective
search of the center console, the video reflects that
any entries by Hanou into the passenger
compartment, and thus any entry into the center
console containing methamphetamine, occurred
only after the unlawful initial search of the cargo
area effected by the opening of the cargo door.
Accordingly,
the
methamphetamine
Hanou
recovered from the center console must be
suppressed as tainted by the above-mentioned
unlawful initial search of the cargo area effected by
the opening of the cargo door, and by the subsequent
unlawful entry into the cargo area.
Second, the justification for the seizure of
appellant to permit a protective weapons search of
the passenger compartment did not support the
initial search of the cargo area. Instead, Hanou’s
detention of appellant from the time the unlawful

C- 34
initial search of the cargo area began to the time
Hanou found methamphetamine in the center
console exceeded the time needed to handle the
matter for which appellant properly could have been
detained—a protective weapons search of the
passenger compartment—and prolonged appellant’s
seizure beyond the time reasonably required to
complete the mission of a protective weapons search
of the passenger compartment. Accordingly, we hold
the methamphetamine Hanou recovered from the
center console must be suppressed because the
seizure of that methamphetamine occurred during
an unduly prolonged detention. (Cf. Rodriguez,
supra, __ U.S. at pp. __ - __ [191 L.Ed.2d at pp. 496497].)
Third, after Hanou opened the cargo door, but
prior to any search of the passenger compartment
(and therefore prior to any search of the center
console for weapons), Hanou seized from the cargo
area three items, i.e., the red luggage (at 4:29:01), an
open square box (at 4:29:10), and a gray rectangular
box (at 4:29:14).
However, after engaging in
numerous other searches and seizures and other
activity, and near the end of the encounter, Hanou
finally searched the red luggage at 4:46:44, i.e.,
about 15 minutes after he initially seized it. He later
searched the gray rectangular box at 4:53:18, about
14 minutes after he initially seized it.
He
subsequently searched the open square box at
4:53:24, removing items from it, about 14 minutes
after he initially seized it.
In other words, Hanou initially seized the
above three items to search them, but only searched
them about 15 minutes later. If Hanou had believed

C- 35
any of these three items contained a firearm that he
needed to seize for safety reasons, he would not have
waited so long to search them and would not have
conducted the numerous other searches and seizures
in the passenger compartment and other activities
that the record clearly reflects he conducted in the
interim. We hold the seizures of these three items
violated the Fourth Amendment and were not
justified as protective weapons seizures for officer
safety. The methamphetamine subsequently seized
from the center console must be suppressed as
tainted by the illegal initial seizures of the above
three items and because the seizure of that
methamphetamine occurred during the unduly
prolonged detention of appellant resulting from the
unlawful initial seizures of those three items.
Fourth and finally, as mentioned, Hanou
testified
to
the
effect
he
recovered
methamphetamine during a protective search of the
center console, but the video reflects he searched the
driver’s area and right front passenger area multiple
times, including, e.g., the driver’s area at 4:42:41,
i.e., 14 minutes after Hanou opened the cargo door.
Thus, for all Hanou’s testimony and the video
reflect, it was during this search of the driver’s area
14 minutes after Hanou opened the cargo door (and
not during the first search of the driver’s area that
occurred at 4:31:13) that Hanou found the
methamphetamine in the center console. If so, this
was not a protective search conducted for officer
safety. The burden was on the People to prove which
search of the driver’s area produced the
methamphetamine in the center console (see People
v. Williams (1999) 20 Cal.4th 119, 136) and the

C- 36
People failed to meet that burden. For each of the
above
four
independent
reasons,
the
methamphetamine Hanou recovered from the center
console must be suppressed.
(b)
The Methamphetamine and
Methamphetamine Pipe Recovered from the Luggage
Must Be Suppressed.
Reasoning similar to the above four points
requires suppression of the methamphetamine and
methamphetamine pipe (collectively, contraband)
found in the luggage. That is, first, the contraband
Hanou recovered from the luggage must be
suppressed as tainted by the above mentioned
unlawful initial search of the cargo area effected by
the opening of the cargo door, and by the subsequent
entry into the cargo area to seize the luggage, an
entry not reasonably related in scope to the
circumstances which justified a protective weapons
search. Second, the contraband must be suppressed
because its seizure occurred during an unduly
prolonged detention resulting from the unlawful
search of the cargo area.
Third, the contraband must be suppressed as
tainted by the illegal seizures of the red luggage,
open square box, and gray rectangular box and
because the seizure of the contraband occurred
during the unduly prolonged detention of appellant
resulting from the unlawful seizures of those three
items.
Fourth, at points during the period from the
time Hanou opened the cargo door (at 4:28:55) to the
time he seized the red luggage (at 4:46:44), Hanou

C- 37
(1) searched the driver’s side five times and the left
rear passenger area twice, (2) engaged in about five
minutes of unexplained conduct (the previously
identified periods one, two, and four through six; we
note Hanou denied remembering using a cell phone),
and (3) reached into the gun case and retrieved
documents (period three) even though he had
already searched the gun case for safety earlier. The
contraband recovered from the luggage must be
suppressed because the seizure of the luggage
occurred during a detention unduly prolonged by the
three above enumerated factors.
For each of the above four independent
reasons, the contraband Hanou seized from the
luggage must be suppressed. We will reverse the
judgment with directions to the trial court to dismiss
this case.13

The methamphetamine Hanou recovered from the
center
console
and
the
methamphetamine
and
methamphetamine pipe he recovered from the luggage formed
the evidentiary basis for appellant’s convictions in this case.
Respondent does not claim the People would be able to proceed
absent this evidence. Remanding the matter for further
proceedings other than dismissal would be an idle gesture. We
will reverse the judgment with directions to the trial court to
dismiss this case. (Cf. People v. Dickey (1994) 21 Cal.App.4th
952, 955, 957; see McGaughran, supra, 25 Cal.3d at p. 591
[reversing judgment after stating suppressed evidence “was
essential to the case against defendant, and the ensuing
conviction therefore cannot stand.”].)
13

C- 38
(c)
None of Respondent’s Arguments
Compel a Contrary Conclusion.
Respondent argues the search of the SUV was
justified by the vehicle search and search-incidentto-arrest exceptions to the warrant requirement. We
disagree. “In [Ross, supra, 456 U.S. at p. 825], the
court held that police who have probable cause to
believe a lawfully stopped car contains contraband
may conduct a warrantless search of any
compartment or container in the car that may
conceal the object of the search.” (People v. Diaz
(2011) 51 Cal.4th 84, 95, italics added.) In Gant, the
high court stated, “we hold that Belton does not
authorize a vehicle search incident to a recent
occupant’s arrest after the arrestee has been secured
and cannot access the interior of the vehicle.” (Gant,
supra, 556 U.S. 332, at p. 335, italics added.) The
fact a defendant is not formally arrested until after
a search does not invalidate the search as incident
to arrest if probable cause to arrest existed prior to
the search and the search is substantially
contemporaneous with the arrest. (People v. Adams
(1985) 175 Cal.App.3d 855, 861.)
Even if we assume that, just prior to the
search of the SUV, Hanou had probable cause to
arrest appellant, there was evidence that, before
Hanou searched the SUV, (1) appellant had been
handcuffed and escorted away from the SUV, and (2)
appellant had been situated “on the front hood” of
Hanou’s police car (behind the SUV). The search of
the SUV was not authorized by Gant because the
search occurred after appellant had been secured
and could not access the interior of the SUV.

C- 39
Moreover, Ross requires probable cause to
believe a lawfully stopped vehicle contains
contraband, and Gant, as indicated above, requires
probable cause to arrest. We have set forth pertinent
events preceding any search of the SUV. Simply put,
and notwithstanding respondent’s argument to the
contrary, prior to any search of the SUV, Hanou
lacked probable cause to believe the SUV contained
contraband and lacked probable cause to arrest.
Significantly, we note the mere fact an officer
observes a firearm does not provide probable cause
to believe it is loaded (cf. People v. Muniz (1970) 4
Cal.App.3d 562, 565-567) or, therefore, probable
cause to believe the possessor of the firearm is
committing the crime of carrying a loaded firearm
(Pen. Code, § 25850, subd. (a)) or possessing the
contraband of a loaded firearm. There is no reason
this should not be equally true where, as here,
according to Hanou, appellant simply told him there
was a firearm in the vehicle.

C- 40
None of the additional facts, including the
way appellant drove or his driving from one motel to
another, the registration matter, the fact there were
numerous motels in the area, Hanou’s numerous
past narcotics-related arrests in the area, the
$10,000 found on appellant, or his refusal to consent
to the search of the SUV, gave Hanou probable cause
to believe the SUV contained contraband or probable
cause to arrest appellant for purposes of Ross and
Gant, respectively, therefore, the search of the SUV
cannot be justified under Ross’s vehicle search
exception or Gant’s search-incident-to-arrest
exception.14

During oral argument, respondent urged for the first
time that a permissible protective search of the passenger
compartment would have given Hanou probable cause to arrest
appellant, therefore, an automobile search thereafter would
have been permissible. However, nothing in this case compels
a departure from the general prohibition against respondent
advancing new theories on appeal (cf. Lorenzana v. Superior
Court (1973) 9 Cal.3d 626, 640-641; but see Green v. Superior
Court (1985) 40 Cal.3d 126, 137-138), therefore, we decline to
consider respondent’s new argument. We decline to consider it
for the additional reason respondent made it for the first time
during oral argument. (Cf. People v. Mateljan (2005) 129
Cal.App.4th 367, 376, fn. 4.) Finally, in light of our analysis,
there is no need to address appellant’s Pitchess claim.
14

C- 41

DISPOSITION
The judgment is reversed and the matter is
remanded with directions to the trial court (1) to
vacate its order denying appellant’s Penal Code
section
1538.5
motion
to
suppress
the
methamphetamine and methamphetamine pipe
that Covina Police Officer Terrence Hanou testified
he recovered from appellant’s SUV, (2) to enter a
new order granting that motion, and (3) to dismiss
the case.
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS
JONES, J.
We concur:
EDMON, P. J.
LAVIN, J.



Judge of the Los Angeles Superior Court, assigned by
the Chief Justice pursuant to article VI, section 6 of the
California Constitution.

APPENDIX D
Ninth Circuit order denying
petition for panel
rehearing and rehearing
en banc
(June 4, 2019)

D-1
Case: 17-56343, 06/04/2019, ID:
11318602, DktEntry: 40, Page 1 of 1
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
JUNE 4, 2019
MOLLY C.
DWYER, CLERK
U.S. COURT OF
APPEALS

JAMES MILLS,
Plaintiff-Appellant,
v.
CITY OF COVINA, a
California municipal
corporation; KIM
RANEY, in his official
capacity as the Chief of
the City of Covina
Police Department;
TERRANCE HANOU,
Officer; DOES, 1-100,
Defendants-Appellees.

No.

17-56343

D.C. No.
2:16-cv-07127-DOCRAO
Central District of
California,
Los Angeles
ORDER

Before: KLEINFELD, NGUYEN, and R. NELSON,
Circuit Judges.
The panel judges have voted to deny
petitioner’s petition for rehearing. Judges Nguyen
and R. Nelson voted to deny the petition for
rehearing en banc, and Judge Kleinfeld

D-2
recommended denying the petition for rehearing en
banc.
The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. Fed.
R. App. P. 35.
Petitioner’s petition for rehearing and
petition for rehearing en banc, filed May 9, 2019, is
DENIED.

